DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page i




                                                       IG’s

                                                   Semiannual

                                                      Report

                                                   to Congress



                                                        March 2009
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page ii
DOC OIG SAR MARCH 09.qxd        6/23/09        5:35 PM       Page iii




                                                                   CONTENTS

              From the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


              Major Challenges for the Department . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


                     Overcome the Setbacks Experienced in Reengineering Decennial Processes, and 

                     Conduct a Successful 2010 Census . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                     Better Position the Department to Address Information Security Risks . . . . . . . . . . . . . . . . . . . . . . . . 5

                     Effectively Manage the Development and Acquisition of NOAA’s

                     Two Environmental Satellites . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                     Establish a Safety Culture at NIST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                     Ensure NTIA Effectively Carries Out Its Responsibilities Under the

                     Digital Television Transition and Public Safety Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


              Other Issues Requiring Significant Management Attention . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


              OIG Recovery Act Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


              Work in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


              Agency Overviews

                     Bureau of Industry and Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                     Economic Development Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 

                     Economics and Statistics Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                     National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

                     National Institute of Standards and Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35 

                     National Telecommunications and Information Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

                     United States Patent and Trademark Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

                     Department-Wide Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47


              Office of Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49


                     Office of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

                     Other OIG Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

                     Tables and Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

                     Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61

DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page iv
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM    Page 1




                                         FROM THE

                                    INSPECTOR GENERAL

              We are pleased to present the Department of                    and accountable manner, while also meeting the
              Commerce Office of Inspector General’s Semiannual              purposes of the Act.
              Report to Congress for the 6 months ending
              March 31, 2009.                                                We had the opportunity in March to testify before
                                                                             Congress on what we consider the major areas of risk
              This report summarizes the work we have completed              facing the Department in spending stimulus funds
              and initiated during this semiannual period on a               effectively. These areas will be the basis for the
              number of critical departmental activities. Among              majority of our Recovery Act work in the upcoming
              other things, we identified the top management chal­           reporting period. We are taking steps to provide
              lenges facing the Department for the incoming                  recommendations to the Department and its bureaus
              Administration, issued a report with recommenda­               upfront in order to help prevent problems. We also
              tions for modifying the contract type and fee struc­           established an OIG Recovery Act Task Force to lead
              ture of the Field Data Collection Automation                   the oversight efforts required under the Act and will
              (FDCA) contract, which aided Census in the renego­             work closely with key decision-makers.
              tiation of this critical decennial contract, and report­
              ed on the fraud, waste, and abuse program for the              We look forward to working with the Department
              digital-to-analog converter box coupon program. In             and the Congress to address these many challenges.
              addition, our investigative activities this reporting          We thank the Secretary, senior officials throughout
              period resulted in two convictions and more than               the Department, and members of Congress and
              $75 million in fines, restitutions, and recoveries.            their staffs, for their support of our work during
                                                                             this reporting period and for their responsive­
              Also during this semiannual period, the American               ness to our recommendations for improving
              Recovery and Reinvestment Act of 2009 became law.              Commerce operations.
              The Act provides nearly $8 billion for stimulus
              projects for the Department, including $4.7 billion
              for the Broadband Technology Opportunities
              Program. This presents the Department, and our
              office, with new responsibilities and challenges to
              spend funds provided under the Act in a transparent




                                                                         1
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 2
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM   Page 3




                                 MAJOR CHALLENGES

                                FOR THE DEPARTMENT


              I
                   n November 2008, we issued a report emphasizing the key challenges facing the new Administration.
                   These are listed in detail below. Since that time the Department has been confronted with new
                   challenges with the passage of the American Recovery and Reinvestment Act. These new challenges are
              also discussed below.



              The Reports Consolidation Act of 2000 requires                Challenge 1
              inspectors general to identify the top management
              challenges facing their departments. For FY 2009              Overcome the Setbacks Experienced in
              Commerce OIG has identified five top challenges that          Reengineering Decennial Processes, and
              require immediate and significant action from the             Conduct a Successful 2010 Census
              Department, and four longer term issues that require
              sustained attention. These challenges provide the focus
                                                                            The Census Bureau’s ability to carry out a successful
              for much of our work, as we assess the Department’s
                                                                            2010 population count continues to be one of the
              progress in meeting them.
                                                                            most critical challenges facing the Department: the
                                                                            first major operation of the 2010 census—address
                                                                            canvassing—is already under way and deadlines for
                TOP 5 MANAGEMENT CHALLENGES                                 several others are approaching. The time lost in
                                                                            revamping operations to accommodate the
                 1. Overcome the Setbacks Experienced in                    Department’s late decision to scale back use of
                    Reengineering the Decennial Processes, and              handheld computers has left Census little or no
                    Conduct a Successful 2010 Census.                       window for testing a number of its replacement
                 2. Better Position the Department to Address               processes, procedures, and strategies before
                    Information Security Risks.                             conducting live operations. At this point in the life
                                                                            cycle, the new Secretary will have little opportunity
                 3. Effectively Manage the Development and                  to impact the 2010 decennial. The new Secretary
                    Acquisition of NOAA’s Two Environmental                 does have the opportunity to impact planning for the
                    Satellites.                                             2020 census. We believe that applying the lessons
                 4. Establish a Safety Culture at NIST.                     learned from the 2010 decennial to the planning and
                                                                            reengineering of the 2020 decennial should be a high
                 5. Ensure that NTIA Effectively Carries Out                priority and begin as soon as possible.
                    Its Responsibilities Under the Digital
                    Television Transition and Public Safety Act.            The 2010 census was to be the first high-tech count
                                                                            in the nation’s history, with employees using


                                                                        3
DOC OIG SAR MARCH 09.qxd        6/23/09         5:35 PM        Page 4




              Major Challenges for the Department                                                             March 2009—Semiannual Report to Congress



              handheld computers equipped with global-                                               FDCA’s original contract terms to determine whether
              positioning software to verify addresses, collect data                                 they were the most suitable for acquiring the needed
              from households that did not mail back census                                          systems and services. We found several weaknesses in
              questionnaires (“nonresponse follow-up”), and                                          the contract, including its formula for determining
              manage a variety of information and tasks. The                                         “award fees,” which are designed to reward and
              mounting problems with the Field Data Collection                                       encourage excellent performance. (See page 27.)
              Automation (FDCA) contract prompted the decision
              to abandon use of handheld computers for                                               We issued two reports on the Census’s preparations
              nonresponse follow-up but keep them for address                                        for address canvassing—the operation intended to
              canvassing.                                                                            verify the accuracy of the address list and maps used
                                                                                                     in conducting the census. One review focused on the
                                                                                                     procedural aspects of the 2008 address canvassing
                                                                                                     dress rehearsal and found, among other things, that
                                                                                                     address canvassing cannot be relied on to improve
                                                                                                     address information for certain types of housing units
                                                                                                     and communities, such as apartments and trailer
                                                                                                     parks. (See page 26.) The second review focused on
                                                                                                     information technology aspects of the tested
                                                                                                     operation and the status of the Census’s efforts to roll
                                                                                                     out a network of local offices to support the
                                                                                                     operation. We found delays in defining requirements
                                                                                                     and completing software development and testing,
                                                                                                     local office deployment, and establishment of
                                                                                                     technical help desk support, all of which have
                                                                                                     increased operational risk. (See page 29.)

                                                                                                     We are currently assessing various aspects of the live
                                                                                                     address canvassing operation, including the Census’s
                                                                                                     efforts to mitigate problems we identified during
                                                                                                     testing. We are also looking at other key initiatives,
                                                                                                     such as the partnership program designed to increase
                                                                                                     participation among minority communities and
                                                                                                     hard-to-reach populations. We plan to issue a series
                                                                                                     of expedited reports to advise Census of our findings
                                                                                                     in an effort to inform decision making and allow for
                                                                                                     prompt adjustments to improve the operation’s
                                                                                                     outcome, and by extension, the accuracy of the 2010
                                                                                                     count.
                 Source: Photograph by the U.S. Census Bureau, Public Information Office (PIO)
                                                                                                     The infusion of $1 billion in stimulus funding gives
              During non-response follow-up, enumerators will obtain                                 the Census Bureau additional resources for enhanced
              questionnaire answers directly from respondents.                                       program management, partnership and outreach
                                                                                                     efforts to minority communities and hard-to-reach
              During this semiannual period we issued three                                          populations. Effective use of this funding adds new
              reports on high-risk 2010 plans and operations. To                                     challenges to Census’s execution of the 2010 count.
              aid the bureau’s contract restructuring and                                            We have added these activities to our list of short-
              negotiation of the FDCA contract, we audited                                           term oversight.




                                                                                                 4
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM    Page 5




              March 2009—Semiannual Report to Congress                                       Major Challenges for the Department



              Challenge 2                                                          dards and guidance, and security technology,
                                                                                   and therefore cannot appropriately apply
              Better Position the Department to Address                            them. We are auditing the efforts within the
              Information Security Risks                                           Department to address these problems and
                                                                                   strengthen IT workforce capabilities, as well
              As in many federal agencies, putting proper                          as future plans for maintaining sufficient
              information security controls in place has been an                   staff expertise.
              intractable problem at the Department of Commerce
              and a long-standing item on OIG’s watch list.
                                                                               ●   Consistent, repeatable C&A processes. We con­
              Despite significant expenditures to mitigate the                     tinue to work with the Department to elim­
              problem, the Department has reported information                     inate the material weakness by the end of
              security as a material weakness every year since                     this calendar year under a jointly developed
              FY 2001.                                                             plan that incorporates realistic milestones
                                                                                   and measurable steps for building consistent
              The reason for the material weakness is ineffective                  and repeatable C&A practices. Our FISMA
              certification and accreditation (C&A): the Federal                   reviews have increased their emphasis on the
              Information Security Management Act (FISMA) and                      Department’s efforts to conduct continuous
              OMB policy require agencies to certify that their                    monitoring—a crucial strategy for eliminat­
              systems and data are protected with adequate,                        ing the material weakness, by which agencies
              functioning security controls before authorizing                     regularly assess and adjust their security con­
              (accrediting) a system to operate. But year after year               trols to maintain or improve protective
              our FISMA reviews have found ineffective C&A                         measures. The limited number of reviews for
              processes that do not adequately identify and assess                 which we have completed fieldwork thus
              needed controls and ultimately fail to assure that                   far—while not sufficient to draw final con­
              systems and data are protected.                                      clusions—have found improved C&A
                                                                                   processes.
              Securing systems from cyber threats is clearly the
              most difficult piece of the challenge because these
                                                                               ●   Cyber Security Assessment and Management
              threats represent a moving target: they increase in                  (CSAM) tool. As part of the effort to build
              number and sophistication almost daily. And as                       repeatable processes, Commerce’s Chief
              agencies incorporate wireless and other technologies                 Information Officer (CIO) initiated a pilot
              to support their operations and workplace                            project to facilitate Department-wide
              flexibilities, they invite new risks that must be                    implementation of CSAM—a software
              anticipated and mitigated.                                           application developed by the Department of
                                                                                   Justice that allows users to take a 360-degree
              To be effective in this environment, the Department’s                approach to C&A. They can input system
              IT security program must be proactive and flexible,                  information as they begin the C&A process
              staffed by IT security professionals who have the                    and, among other things, generate and
              appropriate skills, experience, and clearances to                    implement a security plan that complies
              implement required security controls, assess their                   with FISMA requirements, analyze security
              effectiveness, and anticipate and respond to emerging                requirements, and track resolution of
              threats. Key to the Department’s success in                          vulnerabilities and the results of security
              establishing such a program are the following:                       control monitoring.

                  ●
                      Improved IT security staffing. Our assessments       The six bureaus participating in the pilot are using
                      over the years have found that IT security           CSAM to certify and accredit one of their operational
                      staff lacks adequate understanding of                systems with the goal of identifying challenges to and
                      Commerce IT security policy, NIST stan-              requirements for integrating the tool with current
                                                                           C&A processes. The project is scheduled for


                                                                       5
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM    Page 6




              Major Challenges for the Department                                      March 2009—Semiannual Report to Congress



              completion in June 2009. When fully integrated                 two decades.1 The initial plan called for the purchase
              throughout the Department, CSAM should bring                   of six satellites at a cost of $6.5 billion, with a first
              greater consistency to the C&A process across all              launch in 2008. But problems with a key sensor—the
              Commerce bureaus.                                              Visible/Infrared Imager/Radiometer Suite (VIIRS)—
                                                                             were a major contributor to the program’s June 2006
              Finally, in response to growing cyber threats and              restructuring, which increased the estimate to $12.5
              cyber security incidents, the Department has taken             billion, reduced the number of satellites to four, and
              significant steps toward shoring up IT security at             pushed the first launch back to 2013. (See September
              headquarters. It has established a network security            2006 Semiannual Report to Congress, pages 9 and 29.)
              operations center that uses state-of-the-art
              monitoring tools to provide real-time identification           In December the NPOESS total life cycle cost was
              of potential threats, isolated certain critical networks       revised to $14 billion. The updated estimate reflected
              and enhanced their security measures, and is creating          additional costs for the development of VIIRS as well
              a specialized stand-alone network for processing               as revised operations and support costs. Subsequently,
              extremely sensitive information.                               NOAA announced in March it would delay the first
                                                                             launch by another year—to 2014—because of
              Challenge 3                                                    continuing problems with VIIRS. It also slipped the
                                                                             NPOESS Preparatory Project (NPP)2 launch date
              Effectively Manage the Development                             from 2010 to 2011.
              and Acquisition of NOAA’s Two                                  Preliminary analysis by a team of independent
              Environmental Satellites                                       satellite experts indicates among other things that the
                                                                             NPOESS program as currently defined has a low
              NOAA is modernizing its environmental monitoring               probability of success, that the current estimate of
              capabilities, spending billions of dollars on two              $14 billion should be increased, and that the decision
              satellite systems that provide critical data: the              making by the triagency committee of senior NOAA,
              National Polar-orbiting Operational Environmental              NASA, and the Department of Defense officials
              Satellite System (NPOESS) and Geostationary                    continues to be ineffective. Although current
              Operational Environmental Satellite-R Series                   satellites are expected to operate until 2014, a launch
              (GOES-R).                                                      failure or delays beyond 2014 could result in gaps in
                                                                             the availability of long-term environmental data.
              Space acquisitions like NPOESS and GOES-R are
              highly technical and complex and have a history of             Under the American Recovery and Reinvestment Act
              cost overruns, schedule delays, and performance                of 2009, $74 million will be used for development
              shortfalls. The costs and schedules of both of these           activities to mitigate NPOESS cost and schedule risk
              systems have significantly increased since the projects        and for instruments that will monitor factors
              commenced. They therefore require careful oversight            affecting climate change.
              to minimize any further disruption and to prevent
              any gaps in satellite coverage—a situation that could          GOES-R Acquisitions are Underway. The $7.7 billion
              have serious consequences for the safety and security                            GOES-R system will offer an
              of the nation.                                                                        uninterrupted flow of high-
                                                                                                     quality data for short-range
              More Setbacks for NPOESS. The NPOESS project is                                         weather forecasting and
                                    intended to provide continu­                                     warning, and climate
                                       ous weather and environ­                                    research through 2028. An
                                         mental data for longer
                                         term weather forecast­              1
                                                                               The cost of the NPOESS program is shared equally by NOAA
                                        ing and climate moni­
                                                                               and the Department of Defense.
                                      toring through the coming              2
                                                                               NPP was planned as a risk reduction effort to test NPOESS new
                                                                               instruments in flight. NASA is the lead on this effort.


                                                                         6
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM    Page 7




              March 2009—Semiannual Report to Congress                                       Major Challenges for the Department



              inadequate acquisition and management process                protecting the safety of workers and the community
              contributed to underestimated costs for GOES-R               at large.
              and planned satellite capabilities that were too
              ambitious. As a result, the projected cost of GOES-R         The plutonium spill was one of several incidents
              has increased from $6.2 billion to $7.7 billion, a           reported at NIST labs in the past few years that have
              major sensor has been removed, and the number of             revealed management flaws and a lax safety culture at
              satellites to be purchased has decreased from four           the agency. But it was by far the most serious in terms
              to two.                                                      of the potential for widespread harm.

              Currently NOAA is evaluating the ground segment              The plutonium spill prompted a series of reviews by
              proposals, and contract award is planned for summer          independent health and safety experts, the
              2009. NASA awarded the spacecraft contract in                Department of Energy, and NIST’s Ionizing
              December 2008, but the award was protested to                Radiation Safety Committee. NIST also arranged for
              GAO and NASA issued a stop work order shortly                an independent consultant to analyze the root cause
              thereafter. Since then, NASA re-evaluated the                of the plutonium spill. All of the experts shared a
              proposals and re-awarded the contract in May.                common finding—a commitment to safety at
                                                                           NIST Boulder is seriously lacking. (These reports are
              Reining in additional costs and delays in both               available at http://www.nist.gov/public_affairs/
              programs requires very specific action and vigilant          releases/boulder-incident.html)
              oversight. For NPOESS, the three agencies
              developing the system—NOAA, NASA, and the                    One area related to safety is facility maintenance.
              Department of Defense—must (1) control and                   Two studies conducted by NIST identified a backlog
              resolve the continuing problems with VIIRS,                  of more than $500 million in facility maintenance
              (2) identify the best approach to minimize a potential       and repair requirements. A 2004 study found
              gap in data continuity, and (3) improve triagency            $458 million in deficiencies at NIST’s Gaithersburg
              decision making. Because NPOESS is the only source           campus and a 2008 study identified $48 million in
              of critical weather and environmental data, it is            deficiencies at Boulder. Many of the items relate
              especially important that VIIRS problems be resolved         directly to safety.
              and congressional confidence in and support of the
              program be maintained.                                       NIST noted that it should be investing at least
                                                                           $50 million to $70 million annually to bring its
              For GOES-R, (1) the Department needs to follow               facilities to a “fair” condition and stay ahead of
              best practices in overseeing the acquisition while           further deterioration. It will have nearly double that
              awaiting development of formal Commerce oversight            amount to spend on the backlog in FY 2009: the
              policies and procedures to guide such projects, and          agency reported its FY 2009 appropriation included
              (2) the Department and NOAA need to work with                $68.3 million to address the backlog at Boulder and
              Congress to update the baseline life-cycle cost              Gaithersburg, to which it added another
              estimate used in its annual reporting on the                 $11.9 million ($3.7 million for Boulder, $8.2 million
              satellite system.                                            for Gaithersburg). The Recovery Act allocated
                                                                           $39 million for addressing the backlog in FY 2009,
              Challenge 4                                                  for a total of $119.2 million. Additionally, the
                                                                           Recovery Act allocated $26.5 million specifically for
              Establish a Safety Culture at NIST                           safety improvements at Boulder and Gaithersburg.

              A June 2008 plutonium spill at the National Institute        While these funding commitments will be helpful in
              of Standards and Technology’s Boulder, Colorado,             improving the safety and physical condition of
              laboratory raised serious concerns about NIST’s              NIST’s facilities, it is clear from the circumstances
              ability to perform state-of-the-art research with            surrounding the plutonium incident and subsequent
              radioactive and other dangerous materials while              revelations that, at a minimum, NIST must make


                                                                       7
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM   Page 8




              Major Challenges for the Department                                    March 2009—Semiannual Report to Congress



              safety a primary concern at all organizational levels         The authorizing legislation requires NTIA to
              and strictly comply with all federal requirements and         coordinate with the Department of Homeland
              industry standards. It must establish and enforce             Security in administering the PSIC program and set
              stringent policies and procedures for handling                a statutory deadline of September 30, 2010, to
              hazardous materials and strict lines of accountability        expend grant funds. Subsequent legislation set a
              for implementing them.                                        statutory deadline of September 30, 2007, to
                                                                            award grants.
              We have been monitoring NIST’s efforts to improve
              safety since the incident and, as part of our Recovery        Converter Box Coupon Program Is Progressing. On
              Act oversight, we will closely watch how effectively          February 11, 2009, President Obama signed the
              the agency uses related allocations specifically              DTV Delay Act, which moved the date for the switch
              dedicated to the backlog and safety issues. Following         to all-digital broadcasting from February 17 to
              the plutonium spill, NIST established the position of         June 12, 2009. The delay responded to concerns that
              special assistant to the director for environment,            certain hard-to-reach populations—such as rural
              safety, and health. It also is developing a system for        residents and the elderly—were not yet digital ready.
              compiling all findings and recommendations related            Though NTIA had made substantial progress
              to NIST safety—those from the many experts who                preparing television viewers for the switch by
              reviewed the spill as well as those from other reports        dispensing converter box coupons, the agency
              issued over the years—and for tracking related                reported it had a waiting list of over 4.3 million
              implementation activities. Separately, we are assessing       coupon requests as of February 25, 2009, because
              the status of NIST’s efforts to implement safety-             Commerce had reached the $1.34 billion funding
              related recommendations.                                      limit for the coupons. As a result, NTIA could send
                                                                            out new coupons only as unredeemed ones reached
              Challenge 5                                                   their 90-day expiration date.

              Ensure NTIA Effectively Carries Out Its                       The DTV Delay Act extended the deadline for
              Responsibilities Under the Digital                            coupon requests to July 31, 2009, and authorized
              Television Transition and Public Safety Act                   NTIA to issue replacement coupons to consumers
                                                                            who had allowed their original coupons to expire.
              The Digital Television Transition and Public Safety           The Recovery Act provided $650 million for
              Act of 2005 assigned the National Telecommunica­              additional coupons and related activities such as
              tions and Information Administration responsibility           education and outreach to vulnerable populations. As
              for implementing a $2.5 billion initiative for the con­       of March 24, the waiting list had been cleared, and
              version to digital television and improvements to             NTIA was filling coupon requests as they came.
              public safety communications. The act authorizes
              NTIA to use $1.5 billion to support the nation’s              Maintaining strict accountability for the program
              switch to all-digital broadcasting by offering coupons        requires careful oversight and strong internal controls
              toward the purchase price of converter boxes that will        to, among other things, guard against waste, fraud,
              enable analog television sets to receive digital              and abuse among retailers, and to adapt to evolving
              broadcasts.                                                   program requirements. We have been carefully
                                                                            monitoring NTIA’s program administration. Our
              A primary purpose of the switch is to free up radio           audit of the agency’s oversight, completed during this
              frequencies for advanced wireless emergency                   semiannual period, found that NTIA has made
              communications at state and local levels. NTIA will           significant progress in implementing an initiative to
              use approximately $1 billion to fund grants for public        deter waste, fraud, and abuse, but needed to revise
              safety interoperable communications (PSIC) projects           the plan detailing its waste, fraud, and abuse
              in all 50 states, the District of Columbia, and the           activities. NTIA took numerous corrective actions to
              U.S. territories—a total of 56 entities.                      address our findings and recommendations before



                                                                        8
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 9




              March 2009—Semiannual Report to Congress                                         Major Challenges for the Department



              our report was issued and continues to augment its         be unable to finish projects by September 30, 2010.
              waste, fraud, and abuse activities. (See page 39.)         Given all that must follow the purchase of
                                                                         equipment—installation, operational testing, and
              The delay in transitioning to digital programming,         training at a minimum—grantees who are still in the
              coupled with the stimulus funding, adds new                acquisition stage as late as FY 2010 face the very real
              challenges for NTIA in administering the converter         possibility of arriving at the program’s September 30,
              box coupon program. The agency needs to continue           2010 deadline with partially completed projects but
              to maintain an effective waste, fraud, and abuse           without funding to finish them out.
              detection effort, meet requests for coupons, and
              avoid comingling program and Recovery Act funds.
              The Recovery Act also provides funding to allow
              NTIA to continue to work with stakeholders
              representing at-risk groups, and the FCC, which
              has primary responsibility for consumer education
              and outreach, to ensure a smooth transition to
              digital television.

              PSIC Grantees May Not Be Able to Finish Projects
              Within the Mandated Time Frame. The PSIC
              program is a one-time grant opportunity to target
              specific funds and resources toward improving the
              interoperability of local and state voice and data
              communications. But grantees are moving slowly,
                                                                                                                   Source: OIG, December 2008
              and whether they can complete their projects by the
              statutory deadline of September 30, 2010, is               Police car outfitted with a communication system from a
              questionable.                                              PSIC grant.


              As of March 2009, grantees had spent less than
              9 percent of the available $1 billion, which leaves        NTIA should expeditiously identify grantees who are
              them only 18 months to complete their projects or          at high risk of not meeting the statutory deadline for
              lose funding. In March 2009 we contacted                   completing their projects, give them the technical
              21 grantees, including 18 of the 20 receiving the          assistance they need to accelerate the process,
              largest grants. Only two stated they planned to            carefully monitor their progress, and keep Congress
              acquire most of their interoperable communications         informed of the PSIC program’s status toward
              equipment within the first half of 2009. Ten told us       achieving its objectives. If any entities seem still
              they will start acquiring equipment in late FY 2009        unlikely to meet the deadline, NTIA should work
              and 2 at the beginning of FY 2010. Seven of the            with Congress to obtain the authority to extend the
              21 grantees contacted were concerned that they may         deadlines for these entities.




                                                                     9
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM    Page 10




                               OTHER ISSUES

                           REQUIRING SIGNIFICANT

                           MANAGEMENT ATTENTION

              Weaknesses in the Department’s Acquisition                      Department’s lack of skilled contracting and project
              Oversight and Acquisition Workforce                             management professionals has resulted in inadequate
                                                                              contract management, and significant cost and
              Acquisition and contract management has been a                  schedule overruns and performance shortfalls.
              consistent watch list item for inspectors general, as
              related government spending has ballooned in recent             Our recent audit of the Census Bureau’s Field Data
              years without a commensurate growth in the                      Collection Automation contract (see page XX) found
              acquisition workforce or the higher-level skills                that poorly defined requirements were a significant
              needed to properly oversee complex procurements.                contributor to the problems encountered in
              Cost overruns, fraud, and a lack of oversight and               developing the handheld computers for automating
              accountability are common findings in IG audits and             key operations and the resulting $3 billion increase in
              GAO reviews government-wide.                                    estimated costs for conducting the 2010 census. This
                                                                              audit and an audit of a satellite acquisition at NOAA
              Our top management challenges report described an               found that contractors were receiving high award fees
              acquisition infrastructure at Commerce that does not            for projects that were experiencing serious
              have coherent policies to guide systems acquisition or          performance shortfalls and large cost overruns.
              effective oversight mechanisms. Hiring and retaining
              a skilled acquisition workforce has been difficult at           The Department has taken several steps to address
              the Department, as it has been for all federal agencies.        some of its contract and procurement weaknesses. It
              The Department has a limited number of contracting              is working to complete revisions to its major systems
              specialists to meet its multibillion-dollar workload. It        acquisition procedures. It has improved its
              has no reliable count of its program and project                certification program for contracting officer
              managers or contracting officer representatives—                representatives, in response to our recommendation.
              critical positions in the contracting oversight chain.          And it has taken additional steps intended to
                                                                              support sound management of Recovery Act funds:
              The billions of new dollars available to Commerce for           for example, it combined the Commerce IT Review
              acquisitions grants, and contracts under the Recovery           Board and the Acquisition Review Board into a
              Act, coupled with the act’s call for accelerated                single Investment Review Board, which has
              spending and “fixed price” contracts when practicable,          scheduled reviews for programs that will receive
              will undoubtedly further tax an already overwhelmed             Recovery Act funding.
              acquisition workforce and exacerbate acquisition
              management weaknesses. Our procurement audits                   Also notable are several actions by the Department’s
              have found repeated instances in which the                      Office of Acquisition Management: it recently issued



                                                                         10
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM    Page 11




              March 2009—Semiannual Report to Congress                        Other Issues Requiring Significant Management Attention



              Implementation of the American Recovery and                     engineering proposals, work schedules, and labor
              Reinvestment Act—a quick guide for the acquisition              rates, and assess whether proposed and actual
              workforce—and created a Risk Management and                     materials costs are reasonable, to name a few. NOAA
              Oversight Plan, currently in draft, to highlight                and NIST, as well as the other Commerce agencies,
              contracting and grant risks and help agency program             must ensure they have the necessary skills and
              leaders and acquisition staff prepare mitigation plans.         expertise to carry out these projects.

              But these efforts will not be enough to improve the             USPTO’s Long and Growing Patent
              Department’s overall acquisition operations without             Processing Times, and Its Financing
              commensurate improvements in the size and skill of              Vulnerabilities
              its acquisition workforce—needs that must be
              addressed immediately to oversee Recovery Act                   The efficiency with which the U.S. Patent and
              spending effectively. In the short term, the                    Trademark Office processes patent applications has a
              Department reports that it plans to take advantage of           direct bearing on how well it achieves its mission of
              all hiring flexibilities made available by the Office of        promoting U.S. competitiveness. Meeting the
              Personnel Management and use contractors to                     demand for new patents in a timely manner has been
              augment its acquisition staff for both Recovery Act             a long-standing challenge for USPTO. Increases in
              and normal acquisition spending.                                both the volume and complexity of patent
                                                                              applications have lengthened application processing
              Apart from these plans, the Department needs a                  times and backlogs dramatically. In 2004, USPTO
              comprehensive human capital strategy that addresses             had a patent backlog of nearly a half-million
              both its immediate and long-term hiring needs. That             applications and processing times of 27 months. By
              strategy must, among other things, (1) explicitly               2007, processing times averaged nearly 32 months,
              define the requisite acquisition skills and                     with wait times for communications-related patents
              competencies, (2) tap into government-wide                      as long as 43 months.
              recruiting initiatives, and (3) offer professional
              development and other incentives to attract and keep            As of September 30, 2008, USPTO reported a
              qualified candidates.                                           backlog of 750,596 applications and estimated that
                                                                              the backlog will exceed 860,000 by September 2011.
              Special Acquisition Challenges Face                             USPTO’s current estimates put that backlog at
              NOAA and NIST                                                   740,000 applications by the end of FY 2009, which
                                                                              is a decrease of 10,000 applications over end of FY
              A significant portion of Recovery Act funding going             2008 numbers. The USPTO needs to further
              to NOAA and NIST will be used for construction                  decrease the backlog by continuing to implement
              projects to build science facilities. Monitoring                measures discussed in its 2007-2012 strategic plan
              construction projects poses special challenges: these           that have a significant impact on reducing the
              initiatives are often at risk for anticompetitive               backlog, such as shortening application review times,
              practices, and substandard workmanship, defective               improving examiner error rates, and continuing its
              materials, nonperformance, and corruption. Our                  initiatives to improve the hiring, training, and
              audits and investigations of public works projects, for         retaining skilled examiners. In addition, the USPTO
              example, have identified significant instances of               will persist in pursuing and implementing, where
              nonperformance and misuse of federal funds.                     possible, other measures such as international work
                                                                              sharing and cooperative efforts to aid in decreasing
              These are just some of the potential problems NOAA              the backlog and enhancing examiner efficiencies.
              and NIST grants and procurement specialists must
              be attuned to. Negotiating fair terms for construction          USPTO’s unique financing structure also presents
              projects and managing the work requires a distinctly            challenges. There is a complex relationship between
              different skill set from that needed to oversee research        the number of patent applications filed, the size of
              projects—the ability to evaluate architectural and              the application backlog, the number of patents


                                                                         11
DOC OIG SAR MARCH 09.qxd    6/23/09    5:35 PM    Page 12




              Other Issues Requiring Significant Management Attention                   March 2009—Semiannual Report to Congress



              issued, and the fees USPTO collects in connection
              with the patent process. The agency uses fees                           Ecosystem Management Defined
              collected today to pay for patent applications filed
                                                                                An ecosystem is a geographically specified system
              and examined in prior years. In our November
                                                                                of organisms, including humans, their
              report, we cautioned that with the backlog growing,
                                                                                environment, and the processes that control their
              processing times increasing, and the number of
                                                                                dynamics. NOAA defines an “ecosystem
              patents issued flattening, this method of financing is
                                                                                approach to management” as a geographically
              becoming increasingly risky because of the potential
                                                                                specified, adaptive approach that takes account
              shortfall in future fee collections. This has quickly
                                                                                of ecosystem knowledge and uncertainties,
              become an immediate concern. For FY09, USPTO
                                                                                considers multiple external influences, and
              is projecting that it will likely end the year collecting
                                                                                strives to balance diverse societal objectives.
              roughly $100 million below what it had projected.
                                                                                Implementation will need to be incremental and
              The current model for financing USPTO’s critical
                                                                                collaborative. NOAA recognizes that transition
              mission warrants attention to ensure that it will
                                                                                to and implementation of an ecosystem approach
              continue to provide sufficient funding to process all
                                                                                to management needs to be incremental and
              backlogged applications as well as any newly filed
                                                                                collaborative.
              applications.
                                                                                http://ecosystems.noaa.gov
              NOAA’s Ability to Conserve the Nation’s
              Fragile Oceans and Living Marine
              Resources While Ensuring a Vital                                 During this semiannual period, we responded to a
              U.S. Commercial Fishing Industry                                 congressional request to investigate a series of issues
                                                                               regarding the quality of the science used to determine
              According to NOAA, 3.5 million square miles of our               catch limits for New England commercial fisheries
              coastal and deep ocean waters and the Great Lakes                and related allegations from the fishing industry and
              support over 28 million jobs—one of every six—in                 non-NOAA scientists (see page 31)—a situation that
              the United States, and the value of the U.S. ocean               epitomizes the difficult balance NOAA must
              economy tops $115 billion. But these economic                    maintain in fulfilling its mission. Overall we found
              benefits come at great cost as the health of our ocean           NOAA met the “best available science” requirements
              and coastal ecosystems continues to decline in the               of the Magnuson-Stevens Fishery Conservation and
              face of increasing coastal development, pollution,               Management Act in setting catch limits to protect
              overfishing, climate change, and the destructive                 and rebuild compromised species. But the history of
              impact of invasive species.                                      contention between the groundfish industry and
                                                                               NOAA in the Northeast Region, coupled with
              Charged with maintaining and improving the                       NOAA’s ineffective communications and limited
              viability of marine and coastal ecosystems while                 progress in improving transparency, among other
              supporting global marine commerce and                            things, set the stage for challenging the limits and
              transportation, NOAA manages a significant portion               assailing NOAA’s objectivity in setting them.
              of the federal government’s investment in living
              marine resources. It faces difficult challenges in               Open communications and transparency are essential
              promoting the health of these resources while                    to a productive NOAA-industry partnership that
              ensuring they sustain the vital economic benefits we             succeeds in balancing commercial interests with
              derive from them. The difficulty is perhaps most                 conservation goals. But also critical are ecosystem
              apparent in NOAA’s management of commercial                      approaches to fisheries management, as these support
              fisheries, and its enforcement of numerous related               more comprehensive assessments of species and
              statutes and regulations.                                        better inform resulting regulations. NOAA is slowly
                                                                               making the transition to ecosystem management, and
                                                                               its efforts in this regard must be monitored. NOAA’s
                                                                               ecosystem-based management approaches should


                                                                          12
DOC OIG SAR MARCH 09.qxd        6/23/09     5:35 PM     Page 13




              March 2009—Semiannual Report to Congress                                  Other Issues Requiring Significant Management Attention



              assist NOAA officials in addressing difficulties in                       Export Control Automated Support System
              issuing or revising fishing regulations to minimize                       (ECASS). BIS’ core export administration and
              bycatch of protected species, including marine                            enforcement business processes are directly supported
              mammals, turtles, and birds, or overharvested fish                        by ECASS. Approximately 450 federal staff and
              and mollusks.                                                             28,000 exporters currently use the system. However,
                                                                                        the database structure—originally deployed in
              Ecosystem management must also consider activities                        1984—is complex and no longer supported by the
              occurring outside of the U.S. exclusive economic                          technology industry. The effort to modernize
              zone,3 where illegal, unreported, and unregulated                         ECASS began in 1996, but the project has been
              (IUU) fishing depletes migratory fish stocks,                             beset by technical problems, schedule slips, and
              degrades bottom habitat, increases bycatch, and can                       funding shortages.
              lead to a fishery’s collapse. The Magnuson-Stevens
              Reauthorization Act gave NOAA new authorities to                          The current projected completion date for the
              combat IUU fishing. It is important to monitor                            ECASS modernization is FY 2014. Based on our
              NOAA’s use of these authorities in protecting U.S.                        interviews, the total funding requirements for
              and global fisheries.                                                     ECASS modernization are not clearly established.
                                                                                        BIS must provide a comprehensive plan for what is
              Finally, approximately $210 of the $860 million                           required to modernize ECASS, including how much
              NOAA received in stimulus funding is expressly                            it will cost and how it will avoid the management and
              dedicated to restoring marine and coastal habitats,                       technical problems experienced in past
              addressing backlogs in hydrographic surveys                               modernization attempts.
              (measuring the depth and bottom configuration of
              water bodies), and issuing biological consultations                       Enhancing the performance of ECASS and ensuring
              required by the Endangered Species Act. For                               continued operation of an effective licensing
              example, NOAA plans to invest up to $167 million                          information system are far too important to postpone
              to support restoration projects addressing coral reef                     any longer. BIS must demonstrate that it has a
              conservation, the restoration of fish habitats, the                       modernization strategy and plan in place to
              recovery of endangered species such as salmon and                         convincingly make the case for increased funding, or
              sea turtles, and the improvement of coastal resiliency                    develop a plan to implement its ECASS
              in response to sea level rise and natural hazards. Our                    modernization effort with existing resources (i.e.,
              office plans to monitor how effectively NOAA spends                       reallocate existing funding).
              these funds and implements these programs.

              BIS’ Setbacks in Modernizing Its
              Obsolete Information Technology
              Infrastructure to Strengthen the Dual-Use
              Export Control System

              In January 2007, GAO added the Bureau of Industry
              and Security’s dual-use export control system to its
              government-wide high-risk list. One of the key
              challenges facing BIS in ensuring that the dual-use
              export control system is properly equipped to
              advance U.S. national security, foreign policy, and
              economic interests is the replacement of its obsolete

              3
                  The exclusive economic zone (EEZ) is the 200 nautical miles
                  extending from a nation’s shores. Nations control the undersea
                  resources, primarily fishing and seabed mining, in their EEZ.


                                                                                   13
DOC OIG SAR MARCH 09.qxd        6/23/09    5:35 PM   Page 14




                  OIG RECOVERY ACT OVERSIGHT

              On February 17, 2009, the President signed the                         ●   National Oceanic and Atmospheric Admini­
              American Recovery and Reinvestment Act of 2009                             stration: $230 million for operations,
              into law. The Recovery Act requires an                                     research, and facilities and $600 million for
              unprecedented amount of transparency and                                   procurement, acquisition, and construction.
              accountability and sets out specific responsibilities for
              the OIG to provide oversight of the Department’s                       ●   Office of Inspector General: $6 million for
              activities under the Act and its spending of funds                         general oversight of funds provided to
              appropriated by the Act. The Department of                                 Commerce bureaus under the Act and
              Commerce—five bureaus, plus the Office of                                  $10 million to be transferred from NTIA
              Inspector General—received $7.946 billion in the                           for audit and oversight of funds provided
              Recovery Act, as follows:                                                  for the Broadband Technology Opportu­
                                                                                         nities Program.
                  ● 	       Economic Development Administration:
                            $150 million for economic development                The OIG is in the process of developing a risk-based
                            assistance programs.                                 oversight plan. In the meantime, we have put in
                                                                                 place an interim plan to guide our work. Under this
                                                                                 plan, we
                  ● 	       Bureau of the Census: $1 billion for
                            periodic censuses and programs.                          ●   Established a Recovery Act Task Force and
                                                                                         identified specific oversight priorities includ­
                  ● 	       National Telecommunications and Infor­                       ing fraud prevention, grants; procurements;
                            mation Administration: $4.7 billion for the                  science and research; broadband; digital TV
                            Broadband Technology Opportunities                           conversion and Census.
                            Program and $650 million for the Digital­
                            to-Analog Converter Box Program.                         ●   Are participating on the Department’s
                                                                                         Recovery Act Steering Committee and work­
                  ●     	
                            National Institute of Standards and                          ing groups as advisory members to provide
                            Technology: $220 million for scientific and                  technical assistance and advice on risk assess­
                            technical research and services”, $360 mil­                  ment, operational procedures, and internal
                            lion for construction of research facilities,                controls.
                            $20 million to be transferred from the
                            Department of Health and Human Services                  ●   Developed and are delivering fraud awareness
                            for continued work on advancing health care                  briefings for Departmental procurement,
                            information enterprise integration, and                      grants and program officials and procure­
                            $10 million to be transferred from the                       ment and grant recipients. The briefings
                            Department of Energy to implement section                    focus on risk management for Commerce-
                            1305 of Public Law 110–140, the Energy                       specific programs and emphasize whistle-
                            Independence and Security Act of 2007.                       blower protection and reporting to OIG.



                                                                            14
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 15




              March 2009—Semiannual Report to Congress                                        OIG Recovery Act Oversight



                  ●   Developed expedited reporting processes            ●   Established a Recovery Act web page on
                      and issued our first flash report entitled,            the OIG web site for making OIG reports
                      NTIA Should Apply Lessons Learned from                 and related Recovery Act information avail-
                      the Public Safety Interoperable Communi­               able to the public (see http://www.oig.doc.
                      cations (PSIC) Program to Ensure Sound                 gov/recovery/).
                      Management and Timely Execution of the
                      $4.7 Billion Broadband Technology
                      Opportunities Program.




                                                                    15
DOC OIG SAR MARCH 09.qxd        6/23/09   5:35 PM         Page 16




              OIG Recovery Act Oversight                                                                March 2009—Semiannual Report to Congress



                                          American Recovery and Reinvestment Act of 2009

                                                Department of Commerce Funding

                     Agency                  Amount                                         Purpose (From Joint Explanatory Statement)
               EDA                   $150,000,000                   Leverage private investment, stimulate employment and increase incomes in economically
                                                                    distressed communities.
                                                   $50,000,000      Economic Adjustment Assistance to help communities recover from sudden and severe
                                                                    economic dislocation and massive job losses due to corporate restructuring.
                                                 $50,000,000        May be transferred to federally authorized, regional economic development commissions.
               Census                $1,000,000,000                 To hire additional personnel, provide required training, increase targeted media purchases,
                                                                    and improve management of other operational and programmatic risks.
                                                  $250,000,000      Up to $250,000,000 shall be for partnership and outreach efforts to minority communities
                                                                    and hard-to-reach populations.
               NTIA                  $4,700,000,000                 Broadband Technology Opportunities Program (BTOP), to be available until
                                                                    September 30, 2010. For competitive grants to accelerate broadband deployment in
                                                                    unserved and underserved areas and to strategic institutions that are likely to create jobs or
                                                                    provide significant public benefits.
                                          Up to $350,000,000        To establish the State Broadband Data and Development Grant program, as authorized by
                                                                    Public Law 110-385 and for the development and maintenance of a national broadband
                                                                    inventory map as authorized by division B of this Act.
                                                   Not less than
                                                  $200,000,000      For competitive grants for expanding public computer center capacity.
                                                   Not less than
                                                  $250,000,000      For competitive grants for innovative programs to encourage sustainable broadband adoption.
                   OIG                             $10,000,000      To be transferred to the Department of Commerce Inspector General for audits and
                                                                    oversight of funds provided under this heading.
               NTIA                  $650,000,000                   For additional implementation and administration of the digital-to-analog converter box
                                                                    coupon program, including additional coupons to meet new projected demands and
                                                                    consumer support, outreach and administration.
                                                   $90,000,000      Of the amounts provided, up to $90,000,000 may be use for education, and outreach to
                                                                    vulnerable populations including one-on-one assistance for converter box installation.
               NIST
               Scientific and        $220,000,000                   For research, competitive grants, additional research fellowships and advanced
               Technical                                            research and measurement equipment and supplies.
               Research
               and Services
                                     $20,000,000                    Provided by transfer from the Health Information Technology (HIT) initiative within this Act.
                                                                    For HIT activities, NIST is directed to create and test standards related to health security and
                                                                    interoperability in conjunction with partners at the Department of Health and Human Services.
                                     $10,000,000                    Provided to implement section 1305 of Public Law 110–140 Energy Independence and
                                                                    Security Act of 2007. SEC. 1305. SMART GRID INTEROPERABILITY FRAMEWORK.
                                                                    The Director of the National Institute of Standards and Technology shall have primary
                                                                    responsibility to coordinate the development of a framework that includes protocols and
                                                                    model standards for information management to achieve interoperability of smart grid
                                                                    devices and systems.
               Construction of       $360,000,000                   To address NIST's backlog of maintenance and renovation and for construction of new
               Research Facilities                                  facilities and laboratories.
                                                  $180,000,000      Of the amounts provided, $180,000,000 shall be for the competitive construction grant
                                                                    program for research science buildings, including fiscal year 2008 and 2009 competitions.
               NOAA
               Operations,           $230,000,000                   To address a backlog of research, restoration, navigation, conservation and management activities.
               Research, and
               Facilities
               Procurement,          $600,000,000                   For construction and repair of NOAA facilities, ships and equipment, to improve weather
               Acquisition and                                      forecasting and to support satellite development.
               Construction
                                                  $170,000,000      Of the amounts provided, $170,000,000 shall address critical gaps in climate modeling
                                                                    and establish climate data records for continuing research into the cause, effects and ways
                                                                    to mitigate climate change.
               OIG                   $6,000,000                     To remain available until September 30, 2013.




                                                                                     16
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 17




                                     WORK IN PROGRESS

              Office of Inspector General audits and evaluations           quality and timeliness, and were appropriate for the
              that were initiated or underway during the                   target audiences. Also, review contract requirements,
              reporting period:                                            plans, deliverables, timelines, and funding, and
                                                                           follow up with separate audits of any problem
              BIS                                                          areas identified.

              IT Infrastructure System                                     Decennial Response Integration System
                                                                           (DRIS)
              Determine whether continuous monitoring of
              information security controls is (1) keeping the             Assess DRIS contract requirements, deliverables,
              authorizing official sufficiently informed about the         funding, and timelines, as well as review award fees
              operational status and effectiveness of security             paid to the contractor, the $170 million contract
              controls; and (2) resulting in prompt mitigation of          modification executed in August 2007, and any other
              any identified security control deficiencies. Also           contract changes made to accommodate the Census's
              assess whether BIS has resolved deficiencies we              decision to conduct paper non-response follow-up.
              identified in our FY 2006 Federal Information                Also analyze the findings of unsupported and
              Security Management Act evaluation.                          discrepant proposed costs reported by the Defense
                                                                           Contract Audit Agency in 2005.
              Export Control Cyber-Infrastructure
              System                                                       Decision Documents and Expenditures
                                                                           for the 2010 Decennial Census
              Determine whether (1) the C&A process produced
              sufficient information about remaining system                Identify the decision documentation and other
              vulnerabilities to enable the authorizing official to        information used to support allocations and spending
              make credible risk-based accreditation decisions,            for the 2010 census and determine whether they
              (2) continuous monitoring is keeping the authorizing         are consistent with planned activities and
              official sufficiently informed about the operational         budget requests.
              status and effectiveness of security controls and
              (3) implemented controls adequately protect the              Field Data Collection Automation System
              system and its information.
                                                                           Determine whether (1) the C&A process produced
              Census                                                       sufficient information about remaining system
                                                                           vulnerabilities to enable the authorizing official to
              2010 Decennial Census Communications                         make credible risk-based accreditation decisions,
              Campaign                                                     (2) continuous monitoring is keeping the authorizing
                                                                           official sufficiently informed about the operational
              Evaluate the development and delivery of                     status and effectiveness of security controls and
              promotional materials produced to determine                  (3) the C&A process produced sufficient information
              whether the materials met contract requirements for          about remaining system vulnerabilities to enable the


                                                                      17
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM   Page 18




              Work in Progress                                                        March 2009—Semiannual Report to Congress



              authorizing official to make a credible, risk-based            years of indirect cost rates and related proposals and
              accreditation decision.                                        three cost reimbursable subcontracts.

              NIST                                                           NTIA

              Manufacturing Engineering Laboratory                           Audits of Arkansas, Louisiana, Nevada,
              Managed Infrastructure and Application                         and Pennsylvania Public Safety
              Servers and Databases                                          Interoperable Communications Grants

              Determine whether (1) the C&A process produced                 Determine the progress these states have made in
              sufficient information about remaining system                  acquiring and deploying interoperable communi­
              vulnerabilities to enable the authorizing official to          cations with PSIC grant funds and whether their use
              make credible risk-based accreditation decisions,              of these funds is meeting all federal requirements.
              (2) continuous monitoring is keeping the authorizing
              official sufficiently informed about the operational           USPTO
              status and effectiveness of security controls and
              (3) implemented controls adequately protect the                Enterprise Unix Services System and
              system and its information.                                    Reed Technology and Information
                                                                             Service Patent Data Capture System
              Policies and Procedures for Handling
              Radioactive Materials                                          Determine whether (1) the C&A process produced
                                                                             sufficient information about remaining system
              Evaluate NIST’s training, safety, and response                 vulnerabilities to enable the authorizing official to
              policies and procedures relative to radioactive                make credible risk-based accreditation decisions,
              materials as well as controls over its inventory of and        (2) continuous monitoring is keeping the authorizing
              access to these materials. Also assess whether the             official sufficiently informed about the operational
              agency’s management structure facilitates incident             status and effectiveness of security controls and
              preparedness and response, and the extent to which             (3) the C&A process produced sufficient information
              security and emergency protocols protect the health            about remaining system vulnerabilities to enable the
              and safety of NIST employees at research labs and the          authorizing official to make a credible, risk-based
              surrounding communities.                                       accreditation decision.

              NOAA                                                           Quality Assurance Process

              Finger Lakes Production International,                         Determine (1) the effectiveness of USPTO’s patent
              Inc. for Radio Scripts on Ocean Matters                        quality assurance process in ensuring that established
                                                                             standard of patent examination quality are met, and
              Evaluate a 2002 contract and financial assistance              (2) whether the process complies with applicable
              awards made in 2003, 2005, and 2006 in relation to             Department, bureau and federal laws, regulations,
              a claim by Finger Lakes that NOAA owed the firm                policies, procedures, and guidelines.
              $526,000.
                                                                             Department-wide
              Pacific States Marine Fisheries
              Commission                                                     Department-wide Oversight of Grants

              Comprehensive audit of two NOAA cooperative                    Identify relevant oversight activities currently in place
              agreements and three contract task orders awarded to           at the Department's grants management offices and
              the Commission, which also includes audit of seven             to determine (1) whether those activities are



                                                                        18
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM    Page 19




              March 2009—Semiannual Report to Congress                                                           Work in Progress



              consistent with the Department's grants manual, and           for improving the IT security capabilities of
              (2) how they compare with best practices detailed in          responsible staff. Cover a sample of high-and
              the Guide to Opportunities for Improving Grant                moderate-impact systems at eight operating units,
              Accountability, published by the Domestic Working             including the Office of the Secretary, and the duties
              Group--a coalition of 19 federal, state, and local            and qualifications of their associated IT security
              audit organizations and led by the Comptroller                personnel.
              General of the United States
                                                                            Recovery Act Oversight
              Commerce IT Security Workforce Issues
                                                                            As outlined on page 15, the OIG will conduct
              Review ongoing and planned initiatives the                    ongoing oversight of all Commerce programs that
              Department and operating units are using to                   spend funds appropriated under the Recovery Act.
              strengthen their workforce and identify best practices




                                                                       19
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 20
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 21




                                 BUREAU OF

                           INDUSTRY AND SECURITY


              T
                      he Bureau of Industry and Security is primarily responsible for administering and enforcing the
                      nations’ system for controlling exports of sensitive dual-use goods and technologies. BIS’ major
                      functions include formulating and implementing export control policy; processing export license
              applications; conducting various policy, technical, and economic analyses; promulgating regulations;
              conducting industry outreach; and enforcing the Export Administration Act and regulations. BIS has two
              primary operating units:
              Export Administration implements U.S. export control and nonproliferation laws and policies through export
              licensing, commodity classifications, and advisory opinions; technical, economic, foreign availability, and
              policy analyses; promulgation of regulations; and industry outreach. It also conducts various defense industry
              activities and enforces industry compliance with arms control treaties.
              Export Enforcement participates in reviews of export license applications and conducts criminal and
              administrative investigations relating to the export control portions of the Export Administration Act and
              regulations. It also administers and enforces the antiboycott provisions of the act and regulations.




              Issues Related to the Bureau                                implementation and compliance. The subcommittee
                                                                          and committee posed a series of questions related to
              of Industry and Security’s                                  BIS’ use of funds designated for international treaty
              Budget and Responsibilities                                 implementation and compliance, the curtailment of a
                                                                          Chemical Weapons Convention attaché posted in
              for International Treaty                                    The Hague, and BIS management’s decision to
              Implementation and Compliance                               discontinue spending on a project to compile the
                                                                          U.S. Additional Protocol (AP) declaration using an
              (IPE-19463)                                                 electronic system.

              The Senate Subcommittee on Oversight of                     We reported to the subcommittee and committee
              Government Management, the Federal Workforce,               that conference report language accompanying the
              and the District of Columbia, Committee on                  FY 2006 appropriations bill stated that the funding
              Homeland Security and Governmental Affairs, and             previously spent on international treaty
              the Senate Committee on Foreign Relations asked             implementation and compliance activities could now
              the Office of Inspector General to investigate the          be spent on “national security related programs.”
              Bureau of Industry and Security’s budget                    Based on this language, BIS started funding other
              management practices related to international treaty        programs with the funding previously dedicated


                                                                     21
DOC OIG SAR MARCH 09.qxd    6/23/09    5:35 PM   Page 22




              Bureau of Industry and Security                                       March 2009—Semiannual Report to Congress



              solely to international treaty implementation and            2008 even if spending on the project had continued.
              compliance. With regard to the Chemical Weapons              The development of the system had not been well
              Convention attaché being curtailed from his posting          managed—it was only 35 percent complete in
              in The Hague, this action was taken by BIS                   January 2008 when BIS stopped any further work
              management due to what it described as budget                on it. We found that reverting to a paper-based
              constraints. We found that funding was available,            process for the AP declaration would be inefficient,
              but was used instead by BIS for other national               but in speaking to the other federal agencies involved
              security programs. Finally, we found that the                in AP implementation, none of them felt it would
              electronic system to compile the AP declaration              have any impact on the submission of the initial
              would not have been ready in time to accept the first        AP declaration to the International Atomic
              round of submissions from U.S. industry in late              Energy Agency.




                                                                      22
DOC OIG SAR MARCH 09.qxd    6/23/09    5:35 PM    Page 23




                           ECONOMIC DEVELOPMENT

                              ADMINISTRATION


              T
                       he Economic Development Administration was established by the Public Works and Economic
                       Development Act (PWEDA) of 1965 to generate new jobs, help retain existing jobs, and stimulate
                       private investment in economically distressed regions of the United States. EDA continues to fulfill this
              mission under the authority of PWEDA, as amended by the Economic Development Reauthorization Act of
              2004. Based on local and regional comprehensive economic development strategies, EDA works in partnership
              with state and local governments, regional economic development districts, public and private nonprofit
              organizations, and Indian tribes to help distressed communities address problems associated with long-term
              economic deterioration and sudden and severe economic dislocations, including recovery from the economic
              impact of natural disasters, the closure of military installations and other federal facilities, changes in trade
              patterns, and the depletion of natural resources. EDA provides eligible recipients with technical assistance, as
              well as grants for public works, planning, training and research, and economic adjustment assistance.




              San Bernardino International                                     funds, monitors and closes out projects, and ensures
                                                                               recipients comply with federal law and regulations.
              Airport Authority and the Inland                                 The conversion project is complex; the work is being
              Valley Development Agency                                        accomplished through multiple contracts, consulting
                                                                               agreements, and procurements requiring excellent
              (STL-18837)                                                      organization, communications, and coordination.

              In 1994, the Economic Development Administration
              began a long-term collaboration with the Department
              of Defense Office of Economic Adjustment to
              redevelop Norton Air Force Base in San Bernardino,
              California, into a civilian airport and
              industrial/commercial complex. Before closing in
              March 1994, the 2,221-acre base had maintained and
              repaired aircraft and supported C-141 airlift operations.

              Under a memorandum of understanding with
              Defense, EDA is administering a series of nine
              economic adjustment assistance awards with a total
                                                                                                                        Source: OIG, October 2007
              estimated cost of over $45 million. Defense provides
              the funding. EDA makes grant awards, disburses                   Hangar 763 at the former Norton Air Force Base




                                                                          23
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM    Page 24




              Economic Development Administration                                    March 2009—Semiannual Report to Congress



              During this semiannual period, we audited four                documentation; had no written policies and
              grants issued between 2002 and 2005 for a variety             procedures defining each agency’s project
              of infrastructure and building improvements. The              management responsibilities and duties; lacked
              four have combined total project costs of                     appropriate controls over contract change orders and
              $13.4 million. Two were issued to the San                     modifications; and had no defined contract
              Bernardino International Airport Authority, one was           administration system. In addition, the grantees’
              issued to the Inland Valley Development Authority,            financial management systems did not meet
              and one was issued jointly to both agencies. For the          minimum federal standards for tracking labor and
              period of our audit, the four had claimed combined            fringe benefits, or for accounting for income
              project costs of $10,819,511. We sought to                    generated by the project.
              determine whether claimed costs were reasonable,
              allowable, and allocable to the award, and whether            We recommended that EDA disallow the questioned
              grantees had complied with award terms and                    costs, recover the federal share of $573,375, and
              conditions and were achieving project objectives.             ensure grantees make the necessary improvements to
                                                                            program administration and financial management
              In all four cases, we found the grantees had made             systems to fully comply with federal requirements.
              acceptable progress toward achieving project goals            EDA disallowed the costs as recommended and the
              and objectives. We did, however, question $637,082            grantee paid off the debt in full. EDA also sustained
              in claimed costs for failure to adhere to a variety of        audit recommendations requiring the grantees to
              uniform administrative requirements and federal cost          institute construction management controls, policies
              principles applicable to the awards. For example,             and procedures and to comply with uniform
              grantees did not maintain adequate or complete                administrative requirements pertaining to financial
              documentation for a number of critical procurements           management, procurement, records retention,
              and lacked a system capable of tracking such                  program income and property management.




                                                                       24
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 25




                      ECONOMICS AND STATISTICS

                          ADMINISTRATION


              T
                      he Economics and Statistics Administration analyzes economic activity, formulates policy options,
                      and produces a major share of U.S. government economic and demographic statistics. The chief
                      economist monitors and analyzes economic developments and directs studies that have a bearing on
              the formulation of economic policy. ESA has two principal agencies:

              U.S. Census Bureau is the country’s preeminent statistical collection and dissemination agency. It publishes a
              wide variety of statistical data about the nations’ people and economy, conducting approximately 200 annual
              surveys, in addition to the decennial census of the U.S. population and the quinquennial census of industry.

              Bureau of Economic Analysis prepares, develops, and interprets the national income and product accounts
              (summarized by the gross domestic product), as well as aggregate measures of international, regional, and state
              economic activity.




              Census 2010: Challenges to                                  2009, is the Census’s last opportunity to significantly
                                                                          improve the MAF.
              Conducting a Successful Address
              Canvassing Operation Are                                    In reviews completed during this semiannual period
                                                                          we found that persistent problems with the handheld
              Highlighted in Field Testing and                            computers and related systems, the resulting need to
              Progress Under Realigned                                    modify the Field Data Collection Automation
                                                                          contract, and the compressed schedule for
              FDCA Contract                                               operational testing combined to slow Census’s
                                                                          progress toward fine-tuning and finalizing certain
              Address canvassing—the first major operation of the         aspects of the address canvassing operation before the
              2010 census—involves sending thousands of                   live operation began this past spring. The findings of
              temporary staff (known as “canvassers” or “listers”)        our individual reviews are summarized below.
              equipped with handheld computers to collect
              addresses and geographic information to update the
              Census’s master address file (MAF) and digital maps.
              The bureau describes “an accurate, comprehensive,
              and timely [address] list” as “one of the best
              predictors of a successful census.” The live address
              canvassing operation, scheduled for March-July



                                                                     25
DOC OIG SAR MARCH 09.qxd    6/23/09    5:35 PM    Page 26




              Economics and Statistics Administration	                                  March 2009—Semiannual Report to Congress



              Dress Rehearsal of Address                                       Our Findings
              Canvassing Revealed Persistent                                   Ungeocoded Addresses and Incorrect Zip Codes in the
              Deficiencies in Approach to                                      MAF Set the Stage for Problems in Address Canvassing.
                                                                               According to Census officials, the MAF contains
              Updating the Master Address File                                 some 6 million ungeocoded addresses. Because
              (OSE-18599)                                                      ungeocoded addresses are not on the list given to
                                                                               address canvassers, the burden is on listers to find the
              During dress rehearsal for Census 2010, Census                   associated locations and correctly record the address
              tested decennial systems and operations under real-              information. Census will not mail questionnaires to
              time conditions. The test of address canvassing was              ungeocoded addresses that remain in the MAF and
              conducted from May through June 2007 in San                      nonresponse follow-up enumerators only contact
              Joaquin County, California, and a nine-county area               households that received but did not return a
              surrounding Fayetteville, North Carolina. We                     questionnaire. Therefore, residents at addresses that
              reviewed dress rehearsal activity for the North                  remain ungeocoded after address canvassing are
              Carolina site, and the impact of that activity on the            unlikely to be counted.
              quality of the master address file.
                                                                               In addition, several hundred addresses in our sample
              The MAF is intended to be a current, comprehensive               were duplicates except for the ZIP code. Up-to-date
              list of every address in the nation representing a living        addresses were added by a LUCA operation but the
              quarter—whether occupied or vacant—compiled                      updates were not recognized as the same housing unit
              from, among other things, Census’s 2000 address list,            in the MAF because the ZIP codes were different.
              U.S. Postal Service data, and local government                   Therefore, the LUCA addresses did not override the
              address information provided primarily through an                outdated entries.
              operation known as LUCA—Local Update of Census
              Addresses.                                                       Address Canvassing Remains an Unreliable Approach
                                                                               for Improving the MAF. As in our earlier reviews, we
              The Census’s mechanism for collecting and                        found that address canvassing cannot be counted on
              tabulating decennial census data is to link (geocode)            to reliably record the information needed to geocode
              MAF addresses to the Census’s digital map known as               ungeocoded addresses, identify and add missing
              TIGER (Topologically Integrated Geographic                       units, or eliminate certain address errors. The
              Encoding and Referencing). Only geocoded                         operation is especially challenged when dealing with
              addresses are included in the address canvassing                 (1) nontraditional mailing addresses—for example,
              operation, and only geocoded addresses receive                   multiunit residences whose individual household
              census questionnaires.                                           addresses do not conform to the typical street
                                                                               number and name format; (2) “hidden” dwellings,
              We had evaluated activities to update the MAF and                such as sheds and makeshift garage apartments; and
              related maps during the 2006 census test and                     (3) trailer parks that display both lot numbers
              identified missing, duplicate, and erroneous addresses           corresponding to a unit’s physical space within the
              in the list—problems that would hinder Census’s                  park and unit numbers that are part of the mailing
              ability to get a complete and accurate count during              address. Examples of missed or misidentified
              an actual census. Our review of the 2008 dress                   residences we noted include the following:
              rehearsal for a sample of assignment areas before and
              after address canvassing found that many of the issues               1. 	 A 352-unit apartment complex in our sample
              we noted in 2006 remain.                                                  was in the MAF but not geocoded and
                                                                                        therefore was not on an address canvassing
                                                                                        list. The lister missed several addresses when
                                                                                        adding the complex. The missing addresses
                                                                                        remained ungeocoded and will not receive a


                                                                          26
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 27




              March 2009—Semiannual Report to Congress	                                     Economics and Statistics Administration



                      questionnaire unless they are added during           To improve the master address file for 2010, we
                      the live canvassing operation.                       recommended several short-term actions. These
                                                                           included
                  2.	 A 391-unit retirement community was listed
                      in the MAF in two different ways—by the                  1. m
                                                                                  	 ailing questionnaires to ungeocoded
                      complex’s “location” address—actual street                  postal addresses, and geocoding as many
                      name and unit numbers—and by the                            addresses as possible for forms returned from
                      “vanity” address (complex name and                          valid housing units;
                      numbers), which is used by the Postal
                      Service and not geocoded in the MAF.                     2.	 exploring ways to identify ungeocoded
                      Listers added the vanity addresses for some                  vanity and other unique mailing addresses in
                      units, allowing them to geocode, but not for                 the MAF, and linking them to corresponding
                      others. Subsequent changes to canvassing                     location addresses;
                      procedures and the handheld software will
                      prevent listers from making this correction,             3.	 enhancing instructions and training for
                      which means that entire complexes such as                    listing nontraditional mailing addresses; and
                      this one may not receive mailed
                      questionnaires.                                          4.	 closely monitoring quality control pass/
                                                                                   fail rates nationwide for indications of
                  3. 	 Almost 600 “hidden” units in our sample                     improper recanvassing practices.
                       were identified by listers but not added to
                       the MAF because listers did not sufficiently        To eliminate the recurring problems our work has
                       differentiate the hidden dwelling from the          identified and improve the MAF for 2020, we further
                       primary residence.                                  recommend that Census regularly update the file
                                                                           throughout the decade in lieu of canvassing the entire
                  4. Numerous trailer park residences were                 nation only once, in proximity to Census Day.
                     listed twice in the dress rehearsal lists—once
                     by street address and once by lot number.
                     During dress rehearsal, canvassers often              Revised Field Data Collection
                     eliminated the correct street listing and kept
                     the erroneous lot number listing.                     Automation Contract
                                                                           Incorporated OIG
              Finally, we identified problems with Census’s revised
              quality control procedures.                                  Recommendations, But Concerns
                                                                           Remain Over Fee Awarded
                  ●   We found instances in which quality control
                      staff reinstated addresses that had been
                                                                           During Negotiations
                      correctly deleted by the canvasser and other­        (CAR-18702)
                      wise incorrectly added addresses to
                      canvassers’ lists.                                   The mounting problems with the Census Bureau’s
                                                                           original Field Data Collection Automation (FDCA)
                  ●   We noted that the 2010 procedure of having           contract prompted the decision in April 2008 to
                      the same individual do both the quality con­         modify the contract and reduce Harris Corporation’s
                      trol check of canvassed assignment areas and         role in providing 2010 decennial systems and
                      the recanvassing of areas that fail the check        services. The renegotiations allowed Census to revisit
                      may compromise the results by prompting              the contract type and fee structure and modify them
                      quality control staff to shortcut the recan­         as appropriate.
                      vassing process—a situation we observed in
                      the field.


                                                                      27
DOC OIG SAR MARCH 09.qxd      6/23/09       5:35 PM        Page 28




              Economics and Statistics Administration                                                    March 2009—Semiannual Report to Congress



              To aid the Census’s contract restructuring and                                    Our Findings
              negotiations, we audited FDCA’s original contract
              terms to determine whether (1) award fees paid to                                 We found that although the cost plus award fee
              Harris for the first two performance periods were                                 contract was appropriate for FDCA, the award fee
              appropriate, (2) the incentive fee structure was the                              structure was not tied to measurable performance
              most effective for motivating excellent performance,                              criteria or milestones, and Census did not establish
              and (3) the cost plus award fee contract arrangement                              fixed pricing for applicable items. As a result:
              was the most suitable for acquiring the needed
              systems and services.                                                                 ●   Award fees were excessive and not supported by
                                                                                                        technical assessments of Harris Corporation’s
              The FDCA contract was for a mix of relatively high-                                       performance. Harris received 93 percent
              risk deliverables and standard IT products and                                            ($3.2 million) and 91 percent ($11 million)
              services. Complete requirements for both types of                                         of available fees for the first two performance
              deliverables were unknown at the time of contract                                         periods, respectively, despite serious per­
              award in 2006 and their costs were therefore difficult                                    formance problems noted by Census’s tech­
              to predict. Under the Federal Acquisition Regulation,                                     nical reviewers. Harris received no award
              a cost plus award fee contract is appropriate when                                        fee for the third period. And the fee deter­
              high-risk deliverables are involved because they                                          mination process lacked key features—
              represent new, untested concepts for which the                                            such as qualitative measures and mid-point
              government should bear the greater risk.                                                  assessments—for ensuring awards were
                                                                                                        appropriate.

                                                                                                    ●   The award fee structure did not effectively pro­
                                                                                                        mote excellent performance. Lacking defined
                                                                                                        performance criteria, the fee structure con­
                                                                                                        tained no quantitative goals for dictating
                                                                                                        potential fee amounts as an incentive for
                                                                                                        achievement. Contract provisions further
                                                                                                        allowed unearned award fees to be rolled
                                                                                                        over to subsequent periods, giving Harris the
                                                                                                        opportunity to earn any withheld amounts
                                                                                                        and minimizing the motivational impact
                                                                                                        that a fee reduction is intended to have.

                                                                                                    ●   Census missed opportunities to control costs and
                                                                                                        manage risk. The FDCA Acquisition Plan
                                                                                                        identified several elements that would be
                                                                                                        fixed price, such as mobile computing
                                                                                                        devices and office furniture. The bureau ulti­
                                                                                                        mately awarded the contract for full cost-
                                                                                                        reimbursement but did not document why.
                           Source: Census Bureau, FDCA Contract Award Determination Plan
                                                                                                We briefed Census on our audit findings in August
              Award Fee Determination Process                                                   2008. We made recommendations for improving the
                                                                                                FDCA contract by, among other things, establishing
                                                                                                measurable criteria for assessing performance and
                                                                                                determining fees; modifying the fee structure to
                                                                                                promote excellent performance and limit the practice



                                                                                           28
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM   Page 29




              March 2009—Semiannual Report to Congress                                                Economics and Statistics Administration



              of rolling over fees; and incorporating fixed pricing
              for deliverables, whenever possible.

              Census signed the contract modification on
              November 20, 2008, and incorporated a number of
              our recommendations, including those pertaining to
              fixed pricing, performance incentives, and fee
              rollover. However, Census agreed to a fixed fee
              amount of 9.5 percent for work conducted during
              the contract renegotiation period May 1 – September
              30, 2008, which would be invoiced at the time the
              modification was signed. Although the fixed fee is less
              than the 13 percent maximum allowed under the
              original award fee plan, 9.5 percent is a highly
              questionable amount to guarantee to a contractor the
              bureau felt was performing poorly.
                                                                                 Source: Photograph by the U.S. Census Bureau, Public Information Office (PIO).


              Delays in Address Canvassing                                   The mounting problems with the FDCA contract prompted the
                                                                             decision to abandon use of the handhelds during nonresponse
              Software Development and                                       follow-up while keeping them for address canvassing--the first
                                                                             major operation of the 2010 census.
              Testing, Help Desk Planning, and
              Field Office Deployment Have                                        ●      Potential for unexpected handheld problems.
              Increased Operational Risk                                                 Census missed scheduled dates for testing
                                                                                         handheld components and the integrated
              (OIG-19171)                                                                system, and was left with only 8 days for
                                                                                         field testing the entire system prior to the
              The renegotiated FDCA contract significantly                               live canvassing operation. This short test
              reduced Harris Corporation’s responsibilities and                          period increases the risk that unexpected
              requirements for the 2010 census. Among the                                problems may surface during address can­
              contract changes, the bureau required far fewer                            vassing, possibly affecting the productivity of
              handheld computers—the result of the decision to                           listers and the accuracy of the results.
              abandon their use for nonresponse follow-up. Census                        In addition:
              also took back responsibility for several major tasks
              that had been assigned to Harris, such as collecting                             ■     Census eliminated some hydro­
              data for large blocks (those containing 1,000 or more                                  graphic information from map files
              addresses) and providing help desk support.                                            so that each region’s maps could fit
                                                                                                     on a single digital card in the
              Under the Census’s revised decennial schedule,                                         handhelds. But the move leaves
              Harris was to deliver improved handheld computers                                      listers with fewer reference points to
              to early local census offices by February 3, 2009, so                                  guide them through assignment
              that listers could begin training for the April 6 start                                areas, which might make canvassing
              of address canvassing.                                                                 more difficult.

              We assessed the Census’s progress in developing and                              ■      Census chose the Automated
              implementing planned activities for the address                                         Listing Mapping Instrument
              canvassing operation and identified a number of                                         (ALMI) to list large blocks, because
              concerns:                                                                               these have been a problem for the



                                                                        29
DOC OIG SAR MARCH 09.qxd    6/23/09    5:35 PM   Page 30




              Economics and Statistics Administration                                  March 2009—Semiannual Report to Congress



                                handhelds. AMLI handles large                     ●   Slow deployment of early local census offices. As
                                data-collection tasks in certain                      of late November 2008, Census had opened
                                nondecennial surveys. But it defines                  only 87 of the 151 early local census offices
                                collection areas differently from the                 needed to conduct address canvassing.
                                handhelds, increasing the potential                   Despite having deployed 144 offices as of
                                for duplicates in a decennial                         early February 2009, Census continued to
                                environment, and does not use GPS                     encounter delays with its rollout schedule.
                                technology. In decennial field tests,                 As a backup, Census planned to have nearby
                                canvassers had difficulty completing                  operational offices handle the canvassing
                                certain tasks using ALMI. Census                      preparations and workload of those offices
                                needed to finalize its large block                    not yet open. Census needed to ensure the
                                approach based on field test results                  operational offices had the space and
                                to ensure the information collected                   resources to handle the added work.
                                is accurate and reliable.
                                                                              We made no recommendations in this report because
                  ●     Short time frame for establishing help                of the little time Census had to complete its address
                       desk services. The Census’s decision in                canvassing preparations. But we continued to
                       July 2008 to manage help desk support                  monitor how it (1) finalized its approach to large
                       beginning in January 2009 left little time to          block canvassing, (2) developed and conducted
                       plan for and establish these services by the           training for help desk staff, and (3) deployed local
                       start of address canvassing. Given the limit-          census offices while preparing to implement its
                       ed handheld testing and the uncertainty of             contingency plans as necessary.
                       their performance, solid help desk services
                       must be in place to field potentially high call
                       volumes and ensure a successful operation.




                                                                         30
DOC OIG SAR MARCH 09.qxd     6/23/09    5:35 PM    Page 31




                   NATIONAL OCEANIC AND

                ATMOSPHERIC ADMINISTRATION


              T
                       he National Oceanic and Atmospheric Administration studies climate and global change; ensures
                       the protection of coastal oceans and the management of marine resources; provides weather services;
                       and manages worldwide environmental data. NOAA does this through the following organizations:
              National Weather Service reports the weather of the United States and provides weather forecasts and warnings
              to the general public.
              National Ocean Service provides products, services, and information that promote safe navigation, support
              coastal communities, sustain marine ecosystems, and mitigate coastal hazards.
              National Marine Fisheries Service conducts a program of management, research, and services related to the
              protection and rational use of living marine resources.
              National Environmental Satellite, Data, and Information Service   observes the environment by operating a national
              satellite system.
              Office of Oceanic and Atmospheric Research conducts research related to the oceans and Great Lakes, the lower
              and upper atmosphere, space environment, and the Earth.
              Office of Program Planning and Integration develops and coordinates NOAAs’ strategic plan, supports
              organization-wide planning activities, guides managers and employees on program and performance
              management, and integrates policy analyses with decision-making.




              Review of the Quality of Science                                  science used to determine catch limits for New
                                                                                England commercial fisheries or related issues raised
              Used by the National Marine                                       by the fishing industry and non-NOAA scientists.
              Fisheries Service’s Northeast                                     These allegations were centered on the two fisheries
                                                                                that generated the most concerns—northeast
              Fisheries Science Center                                          groundfish (specifically, Atlantic cod, haddock,
                                                                                pollock, and yellowtail flounder) and Atlantic sea
              During this semiannual period, we investigated a                  scallops. We also reviewed NMFS’ implementation
              series of issues regarding the work and scientific                of National Standard 2 of the Magnuson-Stevens
              methods of the NOAA’s National Marine Fisheries                   Fishery Conservation and Management Act.
              Service’s (NMFS’) Northeast Fisheries Science                     National Standard 2 requires that conservation and
              Center at the request of Senators Snowe, Collins,                 management measures in fishery management plans
              Kennedy, and Kerry. Specifically, we investigated                 be based on the best scientific information available.
              nine allegations concerning either the quality of the             Finally, we addressed concerns that NMFS has


                                                                          31
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM    Page 32




              National Oceanic and Atmospheric Administration                            March 2009—Semiannual Report to Congress



              denied the fishing industry access to underlying              management. Presently, three tiers of stock
              scientific data by examining one particular data              assessments exist. The first and most basic assessment
              access issue that arose from a request under the              is the single-stock assessment. The next level is a
              Freedom of Information Act (FOIA).                            multispecies assessment that examines how species

              Overall we found that the Science Center meets the
              “best available science” requirements of National
              Standard 2. However, we also found an underlying
              lack of confidence in NOAA among industry
              members in the Northeast Region. There is a history
              of contention between the groundfish industry and
              NOAA in the northeast, where industry views
              NOAA as biased towards conservation goals. The
              challenges inherent to balancing a sustainable fishery
              with industry’s interests, coupled with ineffective
              efforts to rebuild stocks, have contributed to this
              unproductive relationship. In our view, the lack of
              trust and confidence in NOAA by the groundfish
              industry manifests itself as doubt in the science. Of
              the nine allegations we examined, we concluded that
              six are the result of ineffective communications and
              ongoing tension between the groundfish industry
              and NOAA. Without an improved relationship, we
              believe the science will continue to be questioned. To
              address this concern, we made several
              recommendations to NOAA to improve its
              relationship with the groundfish industry.
                                                                                 Source: Environmental Assessment Regulatory Impact Review, Initial Regulatory
              Additionally, we found that NOAA’s poor handling                          Flexibility Analysis for Northeast Multispecies Fishery Management Plan,
                                                                                 National Marine Fisheries Service, Gloucester, Massachusetts, January 16, 2009
              of a 2008 FOIA request also contributed to its
              reputation in the Northeast Region as an agency that          Northeast U.S. Shelf Ecosystem
              is unconcerned with transparency. In reviewing the
              FOIA request, we found that the FOIA process was              interaction affects growth and mortality. Finally, the
              loosely managed, with both internal NOAA and                  top tier is an ecosystem assessment that would
              statutory deadlines not being met. We recommended             include single and multispecies effects as well as
              that NMFS examine why deadlines were not met for              environmental factors—the physical, chemical and
              this particular FOIA request, and take steps to ensure        biological processes in a marine ecosystem, and the
              that it meets statutory FOIA requirements and                 interrelationships with human activity. We found
              NOAA’s internal guidelines for future FOIA requests           that NOAA scientists have been and are currently
              by holding responsible staff accountable for                  working within the first tier of single stock
              process deadlines.                                            assessments, but are working toward multispecies and
                                                                            ecosystem approaches. We recommended that
              Finally, several issues arose during the course of our        NOAA more aggressively pursue ecosystem
              review that reinforced the need for NOAA to more              approaches to fisheries management, which will
              aggressively pursue ecosystem approaches to fisheries         require additional data, new models, and analysis.




                                                                       32
DOC OIG SAR MARCH 09.qxd    6/23/09    5:35 PM    Page 33




              March 2009—Semiannual Report to Congress	                                National Oceanic and Atmospheric Administration




              Personnel Inaction and Process                                             resulted in a lack of senior-level attention at
                                                                                         NOAA.
              Breakdowns Delayed NOAA’s
              Release of Fact Sheet, But Policies                                  2. Submission of the document through
                                                                                      informal review channels.
              Have Been Clarified
              (BSD-18407)                                                          3. I	 naction by a senior policy advisor
                                                                                      who provided limited assistance to NOAA in
              In 2006, several journal and online articles alleged                    obtaining departmental clearance for the fact
              that the Department and NOAA had delayed release                        sheet despite receiving at least six drafts over
              of a research report on climate change and hurricane                    a 4-month period.
              intensity. At about the same time, NOAA and NASA
              scientists were complaining that their climate studies           We also found that at the time NOAA had prepared
              were being suppressed. A September 2006 letter from              the fact sheet and initiated the approval process, it
              14 senators to the Commerce and NASA inspectors                  was operating under Commerce and NOAA
              general expressed concerns about possible                        communications policies that were out of date,
              suppression, and asked specifically whether                      confusing, and burdensome, and contained
              Commerce had blocked release of a hurricane/global               conflicting guidance. These policy deficiencies
              warming report. In response, we assessed Commerce                resulted in delays in disseminating press releases and
              policies regarding public release of research data and           scientific research.
              the events surrounding the purported report.
                                                                               The Department updated its communications policy
              Our review documented the following chain of                     in May 2007. NOAA issued a formal policy for
              events: in November 2005, NOAA published an                      preparing fact sheets that is consistent with the
              article in its online NOAA Magazine contending that              Department’s new policy. Both give specific guidance
              its research indicated natural cycles in tropical climate        for sharing findings from fundamental research.
              were the cause of increased Atlantic hurricane activity          However, at the time of our review, NOAA had not
              since 1995, not the greenhouse effect of global                  incorporated the fact sheet policy into the agency’s
              warming. The statement drew criticism from some                  directives system or publicized it agencywide.
              NOAA scientists, who believed it failed to reflect the
              full spectrum of the agency’s research on hurricanes             We recommended that
              and global warming. In response, NOAA decided in
              January 2006 to prepare a fact sheet that would
                                                                                   ●
                                                                                         procedures developed for preparing fact
              present a balanced view of the agency’s                                    sheets be incorporated into NOAA’s direc­
              hurricane/climate change research. The fact sheet was                      tives system and posted to the NOAA web
              approved in May 2006, but was not released until the                       site, and
              following September.
                                                                                   ●     state of the science fact sheets requiring
              We determined the document was not a report                                Department approval be routed through the
              containing new research but the fact sheet approved                        Office of the Secretary Executive Secretariat.
              in May 2006. The fact sheet did not contain new
              science but was an overview of various scientific
              opinions within NOAA. We attributed the delay in
              publishing the document to three principal factors:

                  1. 	Changes in senior-level personnel at
                     NOAA overseeing the fact sheet’s
                     development and distribution, which



                                                                          33
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 34
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM   Page 35




                     NATIONAL INSTITUTE OF

                  STANDARDS AND TECHNOLOGY


              T
                      he National Institute of Standards and Technology promotes U.S. innovation and industrial
                      competitiveness by advancing measurement science, standards, and technology in ways that enhance
                      economic security and improve quality of life. NIST manages four programs: the Technology
              Innovation Program, the Manufacturing Extension Partnership program, the Baldrige National Quality
              Program, and NIST Research Laboratories.




              Hollings Manufacturing                                         terms of their MEP agreements and whether they had
                                                                             complied with all other MEP operating guidelines,
              Extension Partnership (MEP)                                    award terms, and conditions. We also examined
              Program: Audits Question                                       (1) the costs submitted by certain entities that
                                                                             received      cooperative    agreement      funding
              $20 Million in Costs Claimed                                   (“subrecipients”) from the MEP centers to provide
              by Three MEPs                                                  services to clients, and (2) in the case of Florida,
                                                                             third-party in-kind contributions.
              Congress established the MEP program in 1988 to
              offer technical and business management assistance
              to manufacturers, with the goal of improving                   South Carolina MEP Award No.
              their profitability, productivity, and global
              competitiveness. The program, operated by NIST,                70NANB5H1187 (ATL-18567)
              provides partial federal funding to nonprofit
              organizations to operate MEP centers that offer an             The South Carolina Manufacturing Extension
              array of services to business and industry clients. The        Partnership (SCMEP) received a NIST cooperative
              funding is made available through “cooperative                 agreement in 2005 that, as amended, funded
              agreements” that require nonfederal matching funds             operations of its MEP center for 2 years (July 2005­
              from state or regional partners to support center              June 2007). Total estimated costs of the project were
              operations. Today there is at least one center in every        $13.6 million. The federal share was capped at
              state and a total of 59 MEP centers located across             $4.5 million.
              the country.
                                                                             The Partnership claimed costs totaling $11.4 million
              During this semiannual period, we audited the                  for the period July 2005 through March 2007, and
              operations of three MEP centers, located in South              received federal reimbursements of $3.8 million. Our
              Carolina, Florida, and Massachusetts, to determine             audit found that the recipient could not properly
              whether their claimed costs were allowable under the           support approximately $3.4 million in costs claimed


                                                                        35
DOC OIG SAR MARCH 09.qxd         6/23/09     5:35 PM     Page 36




              National Institute of Standards and Technology	                                    March 2009—Semiannual Report to Congress



              by four of its subrecipients, largely for contract,                       Florida MEP Award No.
              matching share, and in-kind expenses incurred while
              providing MEP services. Three subrecipients—                              70NANB3H2002 (ATL-18568)
              Greenville Technical College, South Carolina Export
              Consortium, and University of South Carolina—did                          The Florida MEP received a NIST cooperative
              not provide complete, verifiable documentation to                         agreement in 2003 that, as amended, funded the
              support their claims or program income (generated                         operations of its MEP center for approximately
              by fees, etc., from firms that use MEP services). The                     4 years (August 2003-June 2007). Total budgeted
              fourth—Clemson University—claimed costs that                              costs for the project were $17.1 million. The federal
              were largely outside the scope of the MEP project.                        share was capped at $5.8 million.
              We questioned the $3.4 million in claimed costs.
                                                                                        The MEP claimed costs totaling $19.1 million for
              In addition, the subrecipients’ MEP agreements did                        the period July 2005 through March 2007, and
              not contain the required budget information, and                          received federal reimbursements of $5 million. We
              none had written procedures in place to determine                         questioned $12.6 million of the claimed costs. The
              whether amounts reported to SCMEP were allowable                          bulk of this amount—$11.4 million—were costs
              under federal cost principles.                                            submitted by eight subrecipients who did not
                                                                                        document that the expenditures were directly
              Finally, two of three subrecipients that qualified for                    incurred as part of their MEP-funded work.
              single audits4 did not separately identify the NIST
              MEP program. Therefore these grants were not                              We questioned an additional $742,782 for, among
              subjected to the proper audit techniques required                         other things, unsubstantiated consultant fees,
              under the Single Audit Act.                                               duplicative services, unallowable lobbying activities,
                                                                                        unreasonable travel expenses, and unreasonable rent
              We recommended that NIST take the following                               and supply costs, as well as $386,133 in indirect costs
              actions:                                                                  related to these expenditures.

                      1.	 Disallow $3,409,409 in questioned costs                       We also questioned $99,738 in improperly valued
                          and recover excess federal funds of                           and inadequately documented donated services and
                          $1,136,736.                                                   personnel time. The bulk of this amount—
                                                                                        $85,738—represented expenses incurred by two
                      2.	 Require the recipient to ensure its                           third-party contributors for their own day-to-day
                          subrecipients have appropriate budgets and                    business operations rather than for services directly
                          written policies and procedures that meet                     supporting the MEP.
                          financial system requirements prior to
                          granting any future subawards. The written                    Finally, we found that the financial status reports the
                          procedures should direct subrecipients to                     MEP filed during the period of our audit were
                          comply with the Single Audit Act.                             erroneous: the MEP reported having excess program
                                                                                        income, which was not the case, and incorrectly
                                                                                        characterized these funds as “unrestricted net assets,”
                                                                                        meaning they could be used without federal
                                                                                        restrictions or oversight.

                                                                                        We recommended that NIST take the following
                                                                                        actions:

              4	
                   The Single Audit Act requires nonfederal entities that expend
                                                                                            ●    Disallow $12,623,477 in questioned costs.
                   federal awards from more than one agency totaling $500,000 or
                   more in a year to undergo a “single” audit, conducted by an              ●    Recover $2,868,393 of excess federal funds.
                   independent auditor.



                                                                                   36
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM   Page 37




              March 2009—Semiannual Report to Congress                                 National Institute of Standards and Technology



                  ●   Require the Florida MEP to correct and                  Because of the questioned costs and excess program
                      refile financial status reports to show that all        income, Massachusetts MEP ultimately received
                      earned program income was used to meet                  $1.3 million in excess federal funding.
                      the MEP’s cost-share requirement.
                                                                              We recommended that NIST disallow $5.1 million
                                                                              in questioned costs, and recover $1.3 million in
              Massachusetts MEP Award No.                                     excess federal funds.

              70NANB5H1144 (DEN-18135)
              The Massachusetts Partnership received a NIST                   ADVANCED TECHNOLOGY
              cooperative agreement in September 2005 to
              continue operating an MEP center it had established             PROGRAM
              in 1998. The September 2005 award, as amended,
              provided funding for 1 year (July 2005-June 2006).              The ReJen Company NIST
              Total estimated costs of the project were $7.1 million.
              The federal share was capped at $2.4 million                    Cooperative Agreement No.
              (33 percent) of allowable costs.                                70NANB4H3011 (CAR-18706)
              The Partnership claimed costs totaling $9.4 million             In April 2004, a Nevada company and a California
              for the period July 2005 through June 2006, and                 firm received a $1.5 million Advanced Technology
              received federal reimbursements of $2.4 million.                Program (ATP) cooperative agreement to develop a
              We questioned $5.1 million of its claimed costs,                prototype diesel engine built on thermal technology
              as follows:                                                     that promised huge gains in fuel efficiency along with
                                                                              significant reductions in emissions. The project, as
                  ●   $4,167,430 claimed by two subrecipients                 amended, operated for 3 years (2004-2007) and
                      who could not document that their costs                 capped federal contributions at $600,000 (39.3
                      were incurred as part of their MEP-funded               percent). The recipients were responsible for the
                      work.                                                   remaining costs, the bulk of which came from
                                                                              Caterpillar, Inc., the primary investor in the venture.
                  ●
                      $908,823 for contract services that did not
                      accomplish NIST cooperative agreement                   The Nevada company served as administrator for the
                      objectives.                                             cooperative agreement. The California firm provided
                                                                              the materials, subcontractors, and a test site.
                  ●   $10,745 in consultant fees and associated
                      costs for services provided prior to the                In 2006, we conducted interim audits of costs
                      award’s start date.                                     claimed by both firms during the first 20 months of
                                                                              the project and questioned considerable amounts (see
              In addition, we found that the MEP’s reported                   September 2006 Semiannual Report to Congress, page
              earned program income for the year ended June 30,               41). Interim audits are required for non-federal
              2006, exceeded its nonfederal matching share expen­             entities expending more than $500,000 in federal
              ditures by $1.1 million. But the MEP did not seek               awards in a fiscal year under OMB Circular
              required NIST approval to apply the additional                  No. A-133.
              income to nonfederal expenditures incurred in subse­
              quent award periods. It should therefore have used              During this semiannual period, we conducted a final
              this amount to reduce the federal share of its expen­           audit, in which we assessed whether costs claimed
              ditures, in accordance with cooperative agreement               during the balance of the project period (January
              terms and conditions and federal regulations.                   2006 through April 2007) were reasonable,



                                                                         37
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM    Page 38




              National Institute of Standards and Technology                      March 2009—Semiannual Report to Congress



              allowable, and allocable, and whether—for the entire        did, however, identify minor compliance issues
              performance period—the recipients complied with             related to meeting matching share requirements,
              ATP award criteria. The firms’ combined claimed             tracking project-related material and equipment,
              costs for this period were roughly $450,000.                categorizing budget items, and obtaining indirect
                                                                          cost rate approvals, and we made recommendations
              Overall, we found that costs charged to the ATP             for addressing them in future awards.
              award were reasonable, allowable, and allocable. We




                                                                     38
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM    Page 39




                         NATIONAL

                  TELECOMMUNICATIONS AND

                INFORMATION ADMINISTRATION


              T
                      he National Telecommunications and Information Administration serves as the executive branchs’
                      principal advisor to the President on domestic and international telecommunications and information
                      policy issues. NTIA manages the federal use of the electromagnetic spectrum; provides grants for
              national information and public broadcasting infrastructure projects; and performs telecommunications
              research and engineering. It works to enhance citizens’ access to cable television, phone, and other
              telecommunications services; and educates state and local governments and other entities on ways to use
              information technology and telecommunications more effectively.




              NTIA Should Further Improve                                   Specifically, the agency needed to take steps to receive
                                                                            more timely and informative data on contractor
              Digital-to-Analog Converter Box                               procedures, revise its own audit plan, and clearly
              Coupon Program Internal                                       document the results of its oversight.
              Controls to Prevent Waste, Fraud,
              and Abuse (CAR-19004)                                         Contractor Reports Lacked The
                                                                            Most Useful Data
              NTIA’s management of the $1.5 billion converter
              box coupon program has been an important watch                Reports of contractor activities have not always
              item for OIG because maintaining strict                       provided sufficient useful information. For example,
              accountability for funds in a program of this type and        May 2008 reports contained voluminous data tables
              size can be difficult. We have been closely monitoring        but little analysis and limited information on any
              the program, and during this semiannual period we             actions to be taken as a result of audit tests. One of
              assessed the adequacy of NTIA’s controls to prevent           IBM’s subcontractors showed us tests and analyses it
              waste, fraud, and abuse and the effectiveness of its          had performed outside of IBM’s plan, which we
              oversight of the IBM contract for retailer coupon             believed would provide valuable information for
              redemption.                                                   NTIA. We noted that June, July, and August reports
                                                                            from IBM provided more meaningful data, such as
              Our review found that NTIA is providing effective             retailer surveillance logs that more clearly identified
              oversight but needed to further improve its internal          the status of potential program violation reviews and
              controls to prevent waste, fraud, and abuse.                  the results of onsite visits to certified retailers.



                                                                       39
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM    Page 40




              National Telecommunications and Information Administration                 March 2009—Semiannual Report to Congress



              IBM Was Slow to Submit Program                                            documentation of findings and results; and
              Audit Data                                                                recommendations or corrective actions
                                                                                        taken, if any. NTIA officials subsequently
                                                                                        told us they had begun using the spreadsheet
              We found that NTIA had not been receiving audit
                                                                                        to track their results and had revised the plan
              results from the contractor until well after the
                                                                                        to address our concerns.
              applicable month, though it had asked IBM to                         ●    Some activities called for in the plan had
              provide reports approximately 2 weeks after the
                                                                                        not been fully executed. For example:
              month-end. For example, NTIA received the June
              2008 results on August 5. Timely audit reports are                            ■    The plan states NTIA staff will
              necessary so that NTIA can take prompt actions to
                                                                                                 make site visits to monitor
              strengthen its controls to prevent waste, fraud, and
                                                                                                 contractor efforts. Although NTIA
              abuse. After we discussed this concern with agency
                                                                                                 made some site visits earlier in the
              officials, IBM improved the timeliness of subsequent
                                                                                                 program, staff had not made specific
              reporting: it submitted the August 2008 audit test
                                                                                                 visits focusing on waste, fraud, and
              results on September 17 and the September 2008
                                                                                                 abuse. Such visits are important
              audit results on October 17.
                                                                                                 because they allow real-time
                                                                                                 observation of internal controls
              NTIA’s Waste, Fraud, and Abuse                                                     at work.
              Plan Needed Revision
                                                                                            ■
                                                                                                 The plan calls for regular feed­
              We also found that NTIA’s own plan for reducing                                    back from NTIA on IBM’s audit
              and preventing waste, fraud, and abuse needed                                      plans and reports. We found only
              improvement. The following were among the                                          one set of formal comments on
              weaknesses we identified:                                                          IBM’s reports, dated June 24, 2008.
                                                                                                 NTIA subsequently informed us it
                  ●   The plan did not include a complete listing                                has begun holding regular meetings
                      of the bureau’s activities, did not define the                             with IBM and its subcontractors on
                      project management office’s role in decertify­                             the waste, fraud, and abuse preven­
                      ing retailers who violate program rules, and                               tion program and commenting on
                      did not designate specific staff members                                   IBM’s monthly reports.
                      responsible for activities. It also did not iden­
                      tify how often activities are performed or the           We recommended that NTIA revise its TV Converter
                      resources necessary to complete them. As a               Box Coupon Program: Program Management Office
                      result, it was difficult to track NTIA’s                 Waste, Fraud, and Abuse Plan, to include a complete
                      progress against the plan.                               list of its activities and the individuals responsible for
                                                                               accomplishing them. The revised plan should
                      We showed NTIA a spreadsheet tool we had                 stipulate the frequency for performing procedures
                      developed for our own analysis that                      and the resources needed. In addition, NTIA should
                      identified each activity; owner or contact               track its efforts against the plan and take prompt
                      person who performed the work;                           action to address any shortfalls in resources available
                      date/frequency of the review; test conducted;            for supporting its efforts to prevent program waste,
                      audit process or audit steps taken;                      fraud, and abuse.




                                                                          40
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 41




              March 2009—Semiannual Report to Congress                National Telecommunications and Information Administration




              Public Safety Interoperable
              Communications Grant Program:
              Grantees Appear Unlikely to
              Finish Projects Within Short
              Funding Time Frame
              (DEN-19003)
              The Implementing Recommendations of the 9/11
              Commission Act of 2007 requires the Commerce
              Office of Inspector General to annually assess NTIA’s
              management of the Public Safety Interoperable                                                       OIG, December 2008.
              Communications Grant program—a $1 billion one­
              time, formula-based matching grant program to                Radios purchased under a PSIC grant.
              enable public safety agencies to establish
              interoperable emergency communications systems.
              PSIC was authorized by the Digital Television                Unique Award Process Shortened
              Transition and Public Safety (DTV) Act of 2005.              Time for Implementing Projects
              NTIA was charged under this act with implementing
              the program, in consultation with the Department of          To meet the September 30, 2007, deadline for
              Homeland Security (DHS) and set a deadline of                awarding grants, NTIA made awards before grantees
              September 30, 2010, for grant funds to be expended.          had submitted their required interoperability plans
              The Call Home Act of 2006 directed NTIA to award             and spending justifications. This process differed
              grants by September 30, 2007.                                from many other Commerce grants programs, which
                                                                           award grants competitively based on the merit of an
              We completed our first annual review during this             applicant’s proposal. As a result, many PSIC
              reporting period, in fulfillment of the Implementing         recipients spent the first year of the grant period
              Recommendations Act requirement. For the year                developing required plans and justifications, and
              ended September 30, 2008, we assessed whether                awaiting approvals and subsequent release of funds.
              NTIA efficiently managed and met statutory                   They therefore did not have the full 3-year award
              requirements for the following grant administration          period for acquiring and deploying interoperable
              activities: formula allocations, grant awards,               communications equipment.
              statewide communications interoperability plans,
              and grantees’ applications and investment                    As of February 28, 2009—17 months into the
              justifications.                                              36-month grant period—less than 7 percent
                                                                           ($66.3 million) of the PSIC grant funds had been
              Overall, we found that NTIA’s management of the              drawn down. We surveyed grantees in the fall of
              PSIC program has complied with the statutory                 2008 regarding the status of their projects. Only 1 of
              requirements of the DTV and Call Home acts.                  the 22 grantees responding stated that it planned to
              However, we identified an issue regarding the                acquire most of its interoperable communications
              program’s effectiveness that we believe warrants             equipment within the next 6 months. Eight others
              immediate attention: most grantees have made little          stated they are in the early stages of planning their
              progress in actually implementing their projects, and        acquisitions. The remaining 13 stated they will begin
              may not be able to meet the September 30, 2010,              acquiring equipment in FY 2009 or early FY 2010.
              statutory deadline for completing them.
                                                                           Given all that must follow the purchase of
                                                                           equipment—installation, operational testing, and



                                                                      41
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM   Page 42




              National Telecommunications and Information Administration             March 2009—Semiannual Report to Congress



              training, at a minimum—grantees who are still in the          in consultation with the Federal Communications
              planning or acquisition stage as late as FY 2010              Commission (FCC).
              face the very real possibility of arriving at the
              program’s September 30, 2010, deadline with                   BTOP will make competitive grants to states,
              partially completed projects but without funding to           nonprofit organizations, and broadband service
              finish them.                                                  providers, and require a 20 percent matching
                                                                            investment from nonfederal funding sources.
              To assure that the benefits of the Public Safety              Funding for the program office—which is
              Interoperable Communications Grant Program are                responsible for managing and closing out the
              achieved, we recommended that the Assistant                   grants—expires September 30, 2010.
              Secretary for Communications and Information
                                                                            NTIA is taking on this program midway through its
                  ●   promptly identify those grantees at high risk
                                                                            administration of the Public Safety Interoperable
                      of not meeting the statutory deadline for
                                                                            Communications program, which, like BTOP,
                      completing their projects, provide the tech­
                                                                            requires a 20 percent nonfederal match. It also has a
                      nical assistance they need to accelerate the
                                                                            September 30, 2010, expiration date for federal
                      process, and carefully monitor their progress;
                                                                            funding, but in this case, the deadline applies to
                      and
                                                                            availability of grantee funds (See page 41 for the
                                                                            PSIC report summary).
                  ●   keep Congress informed of the PSIC pro­
                      gram’s status, and if necessary, work with
                      Congress to allow NTIA to extend the dead­            Our audit work on PSIC to date provides
                      line for grantees to expend grant proceeds.           important lessons learned for the NTIA broadband
                                                                            opportunities program to ensure BTOP funds are
                                                                            used effectively and grants meet program
                                                                            objectives. As NTIA prepares to implement the
              NTIA Should Apply Lessons                                     broadband program, it should consider the
              Learned from PSIC Program to                                  following three lessons learned from its
                                                                            administration of PSIC.
              Ensure Sound Management and
              Timely Execution of $4.7 Billion                              Lesson 1: Seek to Extend Funding
              Broadband Technology                                          for the Program Office Beyond
              Opportunities Program                                         FY 2010 to Ensure Proper Oversight

              (ARR-19583)                                                   The September 30, 2010, funding time constraint
                                                                            could impact the quality and success of BTOP
              The American Recovery and Reinvestment Act of                 projects and effective use of funds, though differently
              2009 authorized NTIA to implement the Broadband               from PSIC: the Recovery Act stipulates that any grant
              Technology Opportunities Program (BTOP)—a                     money not awarded by this deadline will be returned
              $4.7 billion one-time competitive matching grants             and does not authorize funding for managing the
              program to expand broadband services to unserved              program beyond September 30, 2010. While there is
              and underserved areas, improve broadband access for           no indication at this time that grant awards cannot be
              public safety agencies, stimulate the economy, and            made by the deadline, the loss of Recovery Act
              create jobs.                                                  funding for the BTOP program office could mean
                                                                            that grant projects still under way at September 30,
              NTIA will implement the program alongside the                 2010, will no longer be actively managed, monitored,
              Department of Agriculture’s Rural Utilities Service—          and closed out. To address this, NTIA could seek a
              which received $2.5 billion for broadband loans, loan         revision to the broadband program requirements that
              guarantees, and grants under the Recovery Act—and             extends the operational time frame for the program


                                                                       42
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM    Page 43




              March 2009—Semiannual Report to Congress                 National Telecommunications and Information Administration



              office to a minimum of 1 year beyond the award                Lesson 3: Complete an
              period of the last grant issued. This change would            Environmental Assessment of the
              enable the agency to continue to manage and
                                                                            Broadband Technology
              properly close out all active grants, and ensure
              grantees meet financial and program reporting                 Opportunities Program Promptly
              requirements.
                                                                            Grantee progress under PSIC was further slowed by
              Lesson 2: Evaluate and Approve                                the wait for an environmental assessment of projects
                                                                            required by the National Environmental Policy Act
              Detailed Project Proposals
                                                                            (NEPA). This assessment was issued more than
              and Spending Plans with Joint                                 16 months into the 36-month grant period. The
              Peer Reviews before Making                                    Recovery Act provides that adequate resources must
              Grant Awards                                                  be devoted to ensuring that applicable NEPA reviews
                                                                            are completed expeditiously. A March 11, 2009,
              PSIC’s enabling legislation required that grant awards        memorandum from the Office of Management and
              be made by September 30, 2007—before grantees                 Budget articulated procedures for executive agencies
              had submitted their spending plans and project                to report their progress to the Council on
              proposals. Funds were not disbursed until the plans           Environmental Quality beginning as soon as
              and proposals were rigorously reviewed and                    possible, but no later than April 7, 2009, with weekly
              approved. This “after award” approach ultimately              updates through April 28, 2009. The OMB memo
              delayed the release of funding—and project                    alerts agencies to ensure they address compliance
              initiation—by 6 to 12 months.                                 issues as quickly as possible for any projects or
                                                                            activities for which necessary environmental activities
              For the broadband program, NTIA needs to establish            and permits have not been completed. NTIA must
              a similarly rigorous review process to ensure that            ensure an environmental assessment for broadband
              proposals target areas of greatest need. And it needs         projects is completed expeditiously so as not to
              to ensure that proposals are evaluated in a timely            hinder grantees from completing their projects
              manner and in advance of grant award.                         within mandated time frames.




                                                                       43
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 44
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 45




                       UNITED STATES PATENT AND

                          TRADEMARK OFFICE


              T
                     he United States Patent and Trademark Office administers the nations’ patent and trademark laws.
                     Patents are granted and trademarks registered under a system intended to provide incentives to invent,
                     invest in research, commercialize new technology, and draw attention to inventions that would
              otherwise go unnoticed. USPTO also collects, assembles, publishes, and disseminates technological
              information disclosed in patents.




              FY 2008 Financial Statements                                 with the requirements of the Federal Financial
                                                                           Management Improvement Act of 1996. However,
              Audit (FSD-19049-1 and 2)                                    the audit identified two significant deficiencies. One
                                                                           was related to USPTO’s lack of segregation of duties­
              Independent auditor KPMG rendered a clean                    -KPMG noted that responsibilities in the receipts
              opinion on USPTO’s FY 2008 financial statements,             accounting and customer deposit accounts area were
              finding that the statements were fairly presented, in        not segregated between individuals in order to
              all material respects and in conformity with U.S.            maintain an effective control environment. The
              generally accepted accounting principles. The audit          second deficiency was in access controls for the IT
              found no instances in which the agency’s financial           systems and supporting infrastructure involved in
              management systems did not substantially comply              processing and maintaining key financial data.




                                                                      45
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 46
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM    Page 47




                                     DEPARTMENT-WIDE

                                       MANAGEMENT


              T
                      he United States Department of Commerce creates the conditions for economic growth and
                      opportunity by promoting innovation, entrepreneurship, competitiveness, and stewardship. The
                      Department has three stated strategic goals:
                      Goal 1: Provide the information and tools to maximize U.S. competitiveness. 

                      Goal 2: Foster science and technological leadership by protecting intellectual property, enhancing

                      technical standards, and advancing measurement science. 

                      Goal 3: Observe, protect, and manage the Earths’ resources to promote environmental stewardship.

              The Department has also established a Management Integration Goal that is equally important to all bureaus:
              Achieve organizational and management excellence.




              Department of Commerce                                        though Commerce has made some progress in
                                                                            addressing them.
              FY 2008 Consolidated Financial
              Statements Audit                                              The second deficiency relates to NOAA’s accounting
                                                                            for personal property. KPMG noted weaknesses in
              (FSD-19048-9-0002)                                            NOAA methods of conducting its fiscal year 2008
                                                                            annual personal property physical inventory,
              Independent auditor KPMG rendered an unqualified              recording capital assets and completed personal
              opinion on the Department’s FY 2008 consolidated              property construction projects, and reviewing
              statements, and found its financial management                personal property data in the Sunflower system.
              systems in full compliance with the Federal Financial
              Management and Improvement Act of 1996.
              However, the audit found two significant deficiencies.
                                                                            Nonfederal Audit Activities
              The first was the result of continuing weaknesses in
              all six IT control areas outlined in GAO’s Federal            In addition to undergoing OIG-performed audits,
              Information System Controls Audit Manual                      certain recipients of Commerce financial assistance
              (FISCAM): entity-wide security, security access               are periodically examined by state and local
              controls, application software development and                government auditors and by independent public
              change control, system software, segregation of               accountants. OMB Circular A-133, Audits of States,
              duties, and service continuity. FISCAM weaknesses             Local Governments, and Non-Profit Organizations, sets
              have been reported at the Department since 1998,              forth the audit requirements for most of these audits.


                                                                       47
DOC OIG SAR MARCH 09.qxd      6/23/09     5:35 PM      Page 48




              Department-wide Management                                                  March 2009—Semiannual Report to Congress



              For-profit organizations that receive Advanced                     programs. For 77 of these reports, the Department
              Technology Program funds from NIST are audited in                  acts as oversight agency and monitors the audited
              accordance with Government Auditing Standards and                  entity’s compliance with the OMB Circular A-133 or
              NIST Program-Specific Audit Guidelines for ATP                     NIST’s program-specific reporting requirements.
              Cooperative Agreements, issued by the Department.                  The other 24 reports are from entities for which
                                                                                 other federal agencies have oversight responsibility.
              We examined 104 audit reports during this                          We identified 10 reports with findings related to the
              semiannual period to determine whether they                        Department of Commerce.
              contained any audit findings related to Department



              Nonfederal Audit Activities
                  Report Category                        OMB A-133 Audits             ATP Program- Specifics Audits            Total
                  Pending (October 1, 2008 )                           42                            18                          60
                  Received                                             57                            44                        101
                  Examined                                             63                            41                        104
                  Pending (March 31, 2009)                             36                            21                          57


              The following table shows a breakdown by bureau of approximately $199 million in Commerce funds audited.


                        Bureau                                                                                        Funds
                        Census                                                                                       111,527
                        EDA                                                                                      44,264,265
                        NIST*                                                                                    45,043,457
                        NOAA                                                                                     63,834,508
                        NTIA                                                                                         569,695
                        PTO                                                                                        2,464,042
                        Unknown                                                                                    1,061,180
                        Multi-Agency                                                                             41,621,574
                        Total                                                                                 $198,970,248
              * Includes $45,043,457 in ATP program-specific audits.


              We identified a total of $1,348,912 in federal questioned costs and $659,567 in funds to be put to better use.
              In most reports the subject programs were not considered major programs; thus the audits involved limited
              transaction and compliance testing against laws, regulations, and grant terms and conditions. The 10 reports
              with Commerce findings are listed in Appendix B-1. (Regional Offices of Audits)




                                                                            48
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM    Page 49




                 OFFICE OF INSPECTOR GENERAL


              T
                       he mission of the Office of Inspector General is to promote economy, efficiency, and effectiveness and
                       detect and prevent waste, fraud, abuse, and mismanagement in the programs and operations of the
                       U.S. Department of Commerce. Through its audits, inspections, performance evaluations, and
              investigations, OIG proposes innovative ideas and constructive solutions that lead to positive changes for the
              Department. By providing timely, useful, and reliable information and advice to departmental officials, the
              administration, and Congress, OIG’s work helps improve Commerce management and operations as well as its
              delivery of services to the public.




              INVESTIGATIONS                                                federal prison as a result of their involvement in this
                                                                            scheme, and over $200 million in fines and
                                                                            restitution have been ordered.        Also during this
              Convictions, Restitution and Jail                             reporting period, one additional defendant pled
              Terms Continue to Mount in                                    guilty and was convicted on conspiracy, wire fraud
              Telemarketing Fraud Case                                      and other charges relating to the scheme. He is the
                                                                            34th participant in the scheme to be convicted
              Judicial actions continue to flow from our joint,             during the course of this investigation. One
              international investigation, previously reported in           additional defendant was also indicted in March
              multiple Semiannual Reports, of a major international         2009 on charges relating to this case. (Atlanta Field
              telemarketing fraud scheme perpetrated by callers             Office)
              falsely identifying themselves as employees of the
              Department of Commerce and other federal                      Commerce Employee Entered into
              agencies. Callers told victims they had won huge
              sweepstakes prizes in a national lottery sanctioned by        Pretrial Diversion Program for
              the U. S. government. The victims were instructed to          Metrochek Fraud, Removed From
              use commercial wire transfer services to send                 Federal Service
              payments of $1,500 to $4,500 to Costa Rica,
              purportedly for insurance and customs fees that were          As reported in our September 2008 Semiannual
              required to retrieve their winnings. Many of those            Report, page 43, an Office of the Secretary employee
              defrauded made multiple transfers to the                      was arrested on charges of first degree theft by OIG
              telemarketers, resulting in more than $30 million in          special agents and the Washington, DC Metropolitan
              identified losses to U. S. residents.                         Police. The employee had fraudulently obtained and
                                                                            given away $1,950 in transit subsidy benefits that she
              This reporting period, 11 defendants were sentenced           had received while also maintaining an assigned
              to prison terms ranging from 3 to 15 years, along             parking permit at the Commerce headquarters
              with restitution orders exceeding $70 million. In the         building. In October 2008, the employee pleaded
              case thus far, 26 defendants have been remanded to            guilty, agreed to a deferred prosecution, and was


                                                                       49
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM   Page 50




              Office of Inspector General                                             March 2009—Semiannual Report to Congress



              admitted into the First Time Offender Diversion                theft or bribery concerning federally funded
              Program with the Superior Court of the District of             programs. The recipient was also ordered to pay
              Columbia. She was also ordered to pay full                     $120,000 in restitution and a $100 special
              restitution in the amount of $1,950. In January                assessment pursuant to his conviction. In addition,
              2009, she was removed from her position for                    $390,000 worth of computers, power tools and other
              misrepresentation in the receipt of transit subsidy            items seized from his residence on orders of the court
              benefits and for transferring transit subsidy benefits         were ordered forfeited to the government.
              to a third party. (Washington Field Office)
                                                                             Additionally, the government is now seeking a civil
              Former CEN Contractor Sentenced                                recovery and damages in excess of $4 million, as
              for Money Laundering                                           available under the False Claims Act, for the
                                                                             scientist’s role in applying for and receiving a grant
              In our March 2008 Semiannual Report, page 26, we               for the purpose of defrauding the United States
              noted that assistance was provided to Immigration              government. On December 3, 2008, the defendant
              and Customs Enforcement (ICE) with the                         was served a civil summons in this new proceeding.
              investigation of a Census Bureau contractor, resulting         (Atlanta Field Office)
              in his conviction in the US District Court for the
              District of Columbia on one count of conspiracy to             Former NIST Employee Sentenced
              launder monetary instruments. On February 13,                  in Steel Theft Scheme
              2009, the defendant was sentenced to 9 years
              incarceration and ordered to serve 2 years supervised          In our September 2008 Semiannual Report, page 42,
              probation upon his release. Debarment proceedings              we reported that a former NIST employee had pled
              are pending against the individual and his affiliated          guilty to charges of theft of government property
              CPA firm to prevent them from obtaining future                 related to his conversion of large quantities of
              government contracts. (Washington Field Office)                industrial steel samples while in charge of the NIST
                                                                             program dedicated to testing its strength and
              NIST Grant Recipient Sentenced for                             structural integrity. On December 12, 2008, the
              Grant Fraud; Civil Suit Filed                                  individual was sentenced to five years of probation
                                                                             and ordered to pay a $25,000 criminal fine. In
              In our September 2008 Semiannual Report, page 41,              addition, the court concurrently imposed asset
              we reported that a jury found a research scientist             forfeiture, pursuant to the plea agreement and
              guilty of intentionally misusing approximately                 sentencing statement. This asset forfeiture includes
              $500,000 in NIST Advanced Technology Program                   the steel and computers that were seized during the
              (ATP) grant funds to pay for numerous personal                 execution of the search warrant at the defendant’s
              expenses including rent, home renovations, cleaning            residence in March 2006. The value of the forfeited
              services for his condominium and miscellaneous                 assets is over $900,000. A motion to finalize the
              household items. This was the first conviction at trial        forfeiture is expected to be filed with the Court in
              achieved by the DOC OIG in a fraud case involving              April 2009, after a public notice has run and no
              the ATP. The grantee had received a $2 million grant           claims are filed for the forfeited property, and will
              for research into computerized medical imaging. A              result in the completion of the forfeiture and the
              criminal investigation was launched, based on                  recovery of the assets. (Denver Field Office)
              questioned costs first identified by the OIG Office of
              Audits, which continued to provide active assistance           NOAA Grantee Sentenced for
              throughout the case.                                           Misusing Funds

              On October 20, 2008, the former grantee was                    In our September 2008 Semiannual Report, page 42,
              sentenced to 15 months imprisonment and 3 years                we reported a guilty plea by a NOAA grantee on
              probation for violating 18 USC § 666, which covers             charges of violating 18 USC § 666, prohibiting theft



                                                                        50
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 51




              March 2009—Semiannual Report to Congress	                                               Office of Inspector General



              concerning federal programs.        The employee             based on prior audit and investigative work; and the
              misappropriated NOAA funds on multiple occasions             OIG’s planned approach for oversight. The Inspector
              in May 2006, when he withdrew a total of $60,000             General also summarized the funding the
              from a $109,886 grant to buy, among other things,            Department had received under the Act.
              methamphetamines and a Rolex watch. The one-
              year grant had been awarded for the purpose of               The Inspector General’s testimony outlined the six
              developing a small boat tuna pole and line training          areas of risk facing the Department in spending
              program to train 40 native Hawaiian people in                stimulus funds effectively and in a manner meeting
              fishing techniques.     On January 20, 2009, the             the economic objectives of the Recovery Act:
              individual was sentenced to a year plus one day of
              incarceration in federal prison, followed by three               1.	 Spending these funds expeditiously, with
              years’ supervised release. The defendant was also                    little time to staff up and gear operations to
              ordered to pay restitution for the full amount of                    accommodate the additional activities, sig­
              $60,000.00 and pay a special assessment of $100.00.                  nificantly increases the risks for fraud and
              (Atlanta Field Office)                                               waste in stimulus-funded initiatives as well
                                                                                   as in the Department’s traditionally funded
              NOAA Employee Fired for Misuse                                       operations.
              of Purchase Card
                                                                               2. T
                                                                                  	 he executive branch, including the
              A NOAA Corps shipboard employee misused his                         Department of Commerce, is still in transi­
              government purchase credit card for personal                        tion. This puts at risk the leadership vision
              purchases. On November 11, 2008, a search warrant                   and decision-making important in executing
              was served at a motorcycle specialty shop in                        a cohesive Recovery Act plan.
              Birmingham, Alabama. The employee’s personal
              racing motorcycle was seized and found to contain                3.	 The act’s emphasis on grant and contract
              $18,174 in aftermarket parts, paid for using the                     spending puts additional pressure on already
              government purchase card. On January 27, 2009,                       overburdened management and administra­
              the employee was removed for misuse of the purchase                  tive operations.
              card. A criminal theft prosecution is pending with
              the United States Attorney’s Office, Northern                    4.	 Construction grants and contracts—which
              District of Alabama. (Atlanta Field Office)                          NOAA and NIST are expressly required to
                                                                                   fund —are inherently risky and difficult to
                                                                                   manage effectively.
              Other OIG Activities
                                                                               5.	 Specific requirements related to competitive
                                                                                   contracts, such as maximizing the use of
              The Inspector General Testifies on                                   fixed-price contracts, and the Act’s Buy
              American Recovery and                                                American requirements, will require extra
              Reinvestment Act Oversight                                           vigilance.

              On March 19, 2009, the Inspector General testified               6.	 The act’s strict oversight requirements and
              before the House Subcommittee on Investigations                      reporting deadlines will require a greater
              and Oversight regarding OIG’s oversight of the                       level of centralized management of the
              science programs and initiatives at the Department of                bureaus than the Department has historical­
              Commerce that will be funded through the American                    ly exercised.
              Recovery and Reinvestment Act.
                                                                           Of these six areas, the Inspector General focused his
              The Inspector General discussed the risks the                testimony on the Department’s weakness in grants
              Department faces in spending its stimulus funds,             and acquisition management and, NOAA and


                                                                      51
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM   Page 52




              Office of Inspector General                                          March 2009—Semiannual Report to Congress



              NIST’s management of construction procurements              working groups. Finally, OIG is providing fraud
              and grants.                                                 awareness training and timely responses to citizen
                                                                          complaints. OIG developed a Recovery Act fraud
              In addition, the Inspector General detailed Recovery        awareness briefing for the Department’s grant and
              Act staffing, which includes the creation of a              procurement specialists, program officials, financial
              Recovery Act Task Force to coordinate oversight. He         management staffs, grantees, and state and local
              also spoke of targeted risk-based audit and                 oversight entities.
              investigative planning and expedited reporting.
              Another key element of oversight is OIG’s                   (View the complete testimony at www.oig.doc.gov.)
              participation in Department steering committee and




                                                                     52
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM    Page 53




              March 2009—Semiannual Report to Congress                                                     Office of Inspector General




              TABLES AND STATISTICS
              Statistical Overview

               TABLES                                                                                                   PAGE
                 1.   Investigative Statistical Highlights for this Period                                                53
                 2.   Audit Resolution Follow Up                                                                          54
                 3.   Audit and Inspections Statistical Highlights for this Period                                        54
                 4.   Audits with Questioned Costs                                                                        54
                 5.   Audits with Recommendations that Funds be Put to Better Use                                         55

               APPENDIXES
                 A. Report Types this Period                                                                              55
                        A.1. Performance Audits                                                                           56
                        A.2. Financial Assistance Audits                                                                  56
                        A-3. Financial Statements Audits                                                                  57
                        A-4. Inspections and System Evaluations                                                           57
                 B. Processed Audit Reports                                                                               58
                    B.1. Process Reports with Audit Findings                                                              59


              Table 1. Investigative Statistical Highlights for this Period

                 Criminal Investigative Activities
                    Arrests                                                                                               0
                    Indictments and informations                                                                          1
                    Convictions                                                                                           2
                    Personnel Actions                                                                                     3
                    Fines, restitutions, judgments, and other civil and administrative recoveries                    $75,967,583
                    Sentencing                                                                                        95.6 years
                 Allegations Processed
                    Accepted for investigation                                                                            27
                    Referred to operating units                                                                           28
                    Evaluated but not accepted for investigation or referral                                              62
                 Total                                                                                                   117


              Audit Resolution and Follow-Up

              The Inspector General Act Amendments of 1988                    Department Administrative Order 213-5, Audit
              require us to present in this report those audits issued        Resolution and Follow-up, provides procedures for
              before the beginning of the reporting period                    management to request a modification to an approved
              (October 1, 2008) for which no management                       audit action plan or for a financial assistance recipient
              decision had been made by the end of the period                 to appeal an audit resolution determination. The
              (March 31, 2009). Six audit reports remain                      following table summarizes modification and appeal
              unresolved for this reporting period (see page 62).             activity during the reporting period.


                                                                         53
DOC OIG SAR MARCH 09.qxd          6/23/09      5:35 PM      Page 54




              Office of Inspector General                                                                March 2009—Semiannual Report to Congress




              Table 2. Audit Resolution Follow-Up
                     Report Category                                                        Modifications                               Appeals
                     Actions pending (October 1, 2008)                                               1                                      3
                     Submissions                                                                     0                                      0
                     Decisions                                                                       1                                      2
                     Actions pending (March 31, 2009)                                                0                                      1




              Table 3. Audit and Inspection Statistical Highlights for this Period

                     Questioned Costs                                                                                                $8,961,5441
                     Value of audit recommendations that funds be put to better use                                                   1,753,062
                     Value of audit recommendations agreed to by management                                                           1,495,300
              1
                  This number includes costs questioned by state and local government auditors or independent public accountants.




              Table 4. Audits with Questioned Costs
                                                                                                                          Questioned Unsupported
                     Report Category                                                                       Number           Costs       Costs
                     A. Reports for which no management decision had been
                        made by the beginning of the reporting period                                          15        $23,027,932            $4,023,938
                     B. Reports issued during the reporting period                                             10            8,961,544           1,953,574
                     Total reports (A+B) requiring a management decision was
                     made during the reporting period1                                                         25          31,989,476            5,977,512
                     C. Reports for which a management decision was made
                        during the reporting period                                                            11            4,373,450             501,599
                               i. Value of disallowed costs                                                                    978,388             501,559
                               ii. Value of costs not disallowed                                                             3,395,062                      0
                     D. Reports for which no management decision had been
                        made by the end of the reporting period.                                               14          27,616,026            5,475,953
              1
                  Three audit reports included in this table are also included among reports with recommendations that funds be put to better use (see Table 5).
                  However, the dollar amounts do not overlap.




                                                                                       54
DOC OIG SAR MARCH 09.qxd       6/23/09      5:35 PM      Page 55




              March 2009—Semiannual Report to Congress                                                                      Office of Inspector General




              Table 5. Audits with Recommendations that Funds Be Put to Better Use
                  Report Category                                                                                           Number              Value
                  A. Reports for which no management decision had been made by the
                     beginning of the reporting period                                                                          2              $152,528
                  B. Reports issued during the reporting period                                                                 3            1,753,062
                  Total Reports (A+B) requiring a management decision during this period1                                       5            1,905,590
                  C. Reports for which a management decision was made during the
                     reporting period2                                                                                          3               724,808
                             i.    Value of recommendations agreed to by management                                                             516,912
                             ii. Value of recommendations not agreed to by management                                                           212,528
                  D. Reports for which no management decision had been made by the end
                     of the reporting period.                                                                                   2            1,180,782
              1
                Three audit reports included in this table are also included among reports with questioned costs (see Table 3). However, the dollar amounts do
                not overlap (see Table 4).
              2
                In Category C, lines i and ii do not always equal the total line in C because resolution may result in values greater than the original
                recommendations.


              Definitions of Terms Used in the Tables
              Questioned cost: a cost questioned by OIG because of (1) an alleged violation of a provision of a law, regulation, contract,
              grant, cooperative agreement, or other agreement or document governing the expenditure of funds; (2) a finding that, at
              the time of the audit, such cost is not supported by adequate documentation; or (3) a finding that an expenditure of funds
              for the intended purpose is unnecessary or unreasonable.
              Unsupported cost: a cost that, at the time of the audit, is not supported by adequate documentation. Questioned costs
              include unsupported costs.
              Recommendation that funds be put to better use: an OIG recommendation that funds could be used more efficiently
              if Commerce management took action to implement and complete the recommendation, including (1) reductions in
              outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of interest subsidy costs on loans or loan
              guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended improvements related to
              Commerce, a contractor, or a grantee; (5) avoidance of unnecessary expenditures identified in preaward reviews of
              contracts or grant agreements; or (6) any other savings specifically identified.
              Management decision: management’s evaluation of the findings and recommendations included in the audit report and
              the issuance of a final decision by management concerning its response.


              Appendix A. Report Types this Period 

                  Type                                                             Number of Reports                           Appendix Number
                  Performance audits                                                           3                                         A-1
                  Financial assistance audits                                                  5                                         A-2
                  Financial statement audits                                                   5                                         A-3
                  Inspection and system evaluations                                            5                                         A-4
                  Total                                                                       18


                                                                                    55
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM   Page 56




              Office of Inspector General                                  March 2009—Semiannual Report to Congress



              Appendix A-1. Performance Audits
                                                                                                       Funds to Be Put
                 Report Title                                       Report Number      Date Issued      to Better Use
                 Census Bureau
                 Census 2010: Revised Field Data Collection
                 Automation Contract Incorporated OIG
                 Recommendations, But Concerns Remain
                 Over Fee Awarded During Negotiations             CAR-18702-9-0001      03/03/09             —
                 National Telecommunications and Information Administration
                 NTIA Should Further Improve
                 Digital-to-Analog Converter Box Coupon
                 Program Internal Controls to Prevent
                 Waste, Fraud and Abuse                           CAR-19004-9-0001      11/25/08             —
                 Public Safety Interoperable
                 Communications Grant Program:
                 Grantees Appear Unlikely to Finish
                 Projects Within Short Funding Time Frame         DEN-19003-9-0001 03/31/09                  —



              Appendix A-2. Financial Assistance Audits

                                                               Date     Funds to be Put Amount       Amount
                 Report Title                Report Number    Issued     for Better Use Questioned Unsupported
                 Economic Development Administration
                 San Bernardino
                 International Airport
                 Authority and/or
                 Inland Valley
                 Development
                 Agency, CA                 STL-18837-9-0001 10/17/08             0       $573,375         $461,886
                 National Institute of Standards and Technology
                 South Carolina
                 Manufacturing
                 Extension Partnership      ATL-18567-9-0001 03/06/09             0       1,136,356         868,564
                 The ReJen Company
                 Joint Venture, NV          CAR-18706-9-0001 03/11/09             0                0              0
                 Florida Manufacturing
                 Extension Partnership ATL-18568-9-0001 03/31/09                  0       4,207,405         157,818
                 Massachusetts
                 Manufacturing
                 Extension Partnership DEN-18135-9-0001 03/31/09          $1,093,495      1,695,496               0


                                                               56
DOC OIG SAR MARCH 09.qxd   6/23/09   5:35 PM   Page 57




              March 2009—Semiannual Report to Congress                                       Office of Inspector General



              Appendix A-3. Financial Statements Audits
                 Report Title                                                Report Number             Date Issued
                 Office of the Secretary
                 Assessment of Information Technology Controls
                 Supporting Financial Management Systems                    FSD-19048-9-0001             11/12/08
                 FY 2008 Consolidated Financial Statements                  FSD-19048-9-0002             11/12/08
                 FY 2008 Special-Purpose Financial Statements               FSD-19048-9-0003             11/17/08
                 U.S. Patent and Trademark Office
                 Assessment of Information Technology Controls
                 Supporting Financial Management Systems                    FSD-19049-9-0001             11/12/08
                 FY 2008 Financial Statements                               FSD-19049-9-0002             11/10/08



              Appendix A-4. Inspection and System Evaluations

                                                                                                    Funds to Be Put
                 Report Title                                      Report Number    Date Issued      to Better Use
                 Bureau of Industry and Security
                 Issues Related to the Bureau of Industry and
                 Security’s Budget and Responsibilities for
                 International Treaty Implementation and
                 Compliance                                            IPE-19463     10/07/08               —
                 Census Bureau
                 Census 2010: Dress Rehearsal of Address
                 Canvassing Revealed Persistent Deficiencies in
                 Approach to Updating Master Address File              OSE-18599     10/17/08               —
                 Census 2010: Delays in Address Canvassing
                 Software Development and Testing, Help Desk
                 Planning, and Field Office Deployment Have
                 Increased Operational Risk                            OIG-19171     2/12/09                —
                 National Oceanic and Atmospheric Administration
                 NMFS Northeast Fishery
                 Management Decisions                                  IPE-19476     2/26/09                —
                 National Telecommunications and Information Administration
                 NTIA Should Apply Lessons Learned from
                 Public Safety Interoperable Communications
                 Program to Ensure Sound Management and
                 Timely Execution of $4.7B Broadband
                 Technology Opportunities Program                      ARR-19583     3/31/09                —


                                                                  57
DOC OIG SAR MARCH 09.qxd      6/23/09      5:35 PM        Page 58




              Office of Inspector General                                       March 2009—Semiannual Report to Congress




              Appendix B. Processed Audit Reports
                  The Office of Inspector General reviewed and accepted 104 audit reports prepared by independent
                  public accountants and local, state, and other federal auditors. The reports processed with questioned
                  costs, recommendations that funds be put to better use, and/or nonfinancial recommendations are listed
                  in Appendix B-1.

                  Agency                                                                                      Audits
                  Census                                                                                          1
                  Economic Development Administration                                                            31
                  National Institute of Standards and Technology*                                                41
                  National Oceanic and Atmospheric Administration                                                15
                  National Telecommunication Information Administration                                           2
                  PTO                                                                                             3
                  Multi-Agency                                                                                    7
                  No DOC                                                                                          3
                  Unknown                                                                                         1
                  Total                                                                                         104
              *Includes 41 ATP program-specific audits.




                                                                    58
DOC OIG SAR MARCH 09.qxd    6/23/09    5:35 PM   Page 59




              March 2009—Semiannual Report to Congress                                       Office of Inspector General




              Appendix B-1. Processed Reports with Audit Findings
                                                            Date    Funds to Be Put Federal Amount Federal Amount
               Report Title            Report Number       Issued    to Better Use    Questioned    Unsupported
               Economic Development Administration
               Central Arkansas
               Planning and
               Development
               District               ATL-09999-9-3308 12/15/08          $572,280        0                   0
               Los Angeles
               County Fair
               Association            ATL-09999-9-3073 03/04/09             0            0                   0
               National Institute of Standards and Technology
               Thomson,
               Inc., NJ               ATL-09999-9-2836 11/19/08             0          75,666                0
               National Oceanic and Atmospheric Administration
               Michigan
               Department of
               Environmental
               Quality                ATL-09999-9-3293 12/15/08             0         118,757              3,509
               State of
               Mississippi
               Institutions of
               Higher Learning        ATL-09999-9-3226 12/31/08             0            0                   0
               Howard
               University, DC         ATL-09999-9-3220 01/09/09             0         461,797            461,797
               American
               Rivers, DC             ATL-09999-9-3149 03/04/09             0         627,600                0
               Western Research
               Alliance
               Foundation, SD ATL-09999-9-3410 03/25/09                     0          36,250                0
               National Telecommunications and Information Administration
               Kanza Society,
               Inc., KS               ATL-09999-9-3201 01/07/09           87,287         0                   0
               U.S. Patent and Trademark Office
               International
               Intellectual
               Property
               Institute, DC          ATL-09999-9-3418 03/17/09             0          28,842                0




                                                                    59
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM   Page 60




              Office of Inspector General                                          March 2009—Semiannual Report to Congress




              Audits Unresolved for More Than                             had complied with contract terms and conditions
                                                                          and federal regulations and had billed Census for
              6 Months                                                    work performed in accordance with specifications of
                                                                          the task order. We found that the firm failed to
              Census Bureau                                               comply with numerous contract and federal
                                                                          requirements, which caused us to question more
              ITS Services, Inc. In March 2005, we reported that          than $10.7 million in direct labor and other
              3 of the 32 task orders awarded under an IT services        reimbursable costs.
              contract were audited to determine whether the costs
              billed by the firm were reasonable, allowable, and          We have suspended audit resolution on both of these
              allocable under contract terms and conditions and           contract audits pursuant to an agreement with Census.
              federal regulations. We found that the firm had
              failed to comply with numerous contract and federal         NOAA
              requirements, and questioned more than
              $8.5 million in direct labor and reimbursable costs.        Alaska Eskimo Whaling Commission: A single
                                                                          audit review of this NOAA grant questioned costs
              Computer & High Tech Management, Inc. We                    totaling $66,353 in expenditures that were not
              reported in our September 2005 Semiannual Report            adequately documented.     This audit remains
              (page 14) the results of audits of 2 of the 21 task         unresolved because we requested that NOAA
              orders for another firm providing IT services to            postpone its submission of an audit resolution
              Census. We sought to determine whether the firm             proposal. (ATL-09999-8-3238).




                                                                     60
DOC OIG SAR MARCH 09.qxd    6/23/09    5:35 PM    Page 61




              March 2009—Semiannual Report to Congress                                                   Office of Inspector General




              REPORTING REQUIREMENTS
              The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The
              requirements are listed below and indexed to the applicable pages of this report.

                 Section                         Topic                                                                      Page
                 4(a)(2)                         Review of Legislation and Regulations                                     61-62
                 5(a)(1)                         Significant Problems, Abuses, and Deficiencies                            21-51
                 5(a)(2)                         Significant Recommendations for Corrective Action                         21-51
                 5(a)(3)                         Prior Significant Recommendations Unimplemented                             61
                 5(a)4                           Matters Referred to Prosecutive Authorities                                 53
                 5(a)(5) and 6(b)(2)             Information or Assistance Refused                                           61
                 5(a)(6)                         Listing of Audit Reports                                                  56-59
                 5(a)(7)                         Summary of Significant Reports                                            21-47
                 5(a)(8)                         Audit Reports—Questioned Costs                                              54
                 5(a)(9)                         Audit Reports—Funds to Be Put to Better Use                                 55
                 5(a)(10)                        Prior Audit Reports Unresolved                                              62
                 5(a)(11)                        Significant Revised Management Decisions                                    62
                 5(a)(12)                        Significant Management Decisions with which OIG Disagreed                   62


              Section 4(a)(2): Review of                                      reports for which corrective action has not been
              Legislation and Regulations                                     completed. Section 5(b) requires that the Secretary
                                                                              transmit to Congress statistical tables showing the
              This section requires the inspector general of each             number and value of audit reports for which no final
              agency to review existing and proposed legislation              action has been taken, plus an explanation of the
              and regulations relating to that agency’s programs              reasons why recommended action has not occurred,
              and operations. Based on this review, the inspector             except when the management decision was made
              general is required to make recommendations in the              within the preceding year.
              semiannual report concerning the impact of such
              legislation or regulations on the economy and                   To include a list of all significant unimplemented
              efficiency of the management of programs and                    recommendations in this report would be
              operations administered or financed by the agency or            duplicative. Information on the status of any audit
              on the prevention and detection of fraud and abuse              recommendations can be obtained through OIG’s
              in those programs and operations. Comments                      Office of Audit and Evaluation.
              concerning legislative and regulatory initiatives
              affecting Commerce programs are discussed, as                   Sections 5(a)(5) and 6(b)(2): Information
              appropriate, in relevant sections of the report.                or Assistance Refused

              Section 5(a)(3): Prior Significant                              These sections require a summary of each report to
              Recommendations Unimplemented                                   the Secretary when access, information, or assistance
                                                                              has been unreasonably refused or not provided. There
              This section requires identification of each significant        were no instances during this semiannual period and
              recommendation described in previous semiannual                 no reports to the Secretary.



                                                                         61
DOC OIG SAR MARCH 09.qxd   6/23/09    5:35 PM   Page 62




              Office of Inspector General                                           March 2009—Semiannual Report to Congress



              Section 5(a)(10): Prior Audit                                modification to an audit action plan. One
              Reports Unresolved                                           modification to an action plan was decided this
              This section requires a summary of each audit report         period. For financial assistance audits, OIG must
              issued before the beginning of the reporting period          concur with any decision that would change the audit
              for which no management decision has been made by            resolution proposal in response to an appeal by the
              the end of the reporting period (including the date          recipient. The decisions issued on the two appeals of
              and title of each such report), an explanation of why        audit-related debts were finalized with the full
              a decision has not been made, and a statement                participation and concurrence of OIG.
              concerning the desired timetable for delivering a
              decision on each such report. There were one NOAA            Section 5(a)(12): Significant
              and five Census reports more than 6 months old.              Management Decisions with Which
                                                                           OIG Disagreed
              Section 5(a)(11): Significant
              Revised Management Decisions                                 This section requires information concerning any
                                                                           significant management decision with which the
              This section requires an explanation of the reasons          inspector      general    disagrees.   Department
              for any significant revision to a management decision        Administrative Order 213-5 provides procedures for
              made during the reporting period. Department                 elevating unresolved audit recommendations to
              Administrative Order 213-5, Audit Resolution and             higher levels of Department and OIG management,
              Follow-up, provides procedures for revising a                including their consideration by an Audit Resolution
              management decision. For performance audits, OIG             Council. During this period no audit issues were
              must be consulted and must approve in advance any            referred to the council.




                                                                      62
